<html>
<title> - CLIMATE SCIENCE: ASSUMPTIONS, POLICY IMPLICATIONS, AND THE SCIENTIFIC METHOD</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                            CLIMATE SCIENCE:
                   ASSUMPTIONS, POLICY IMPLICATIONS,
                       AND THE SCIENTIFIC METHOD

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             MARCH 29, 2017

                               ----------                              

                           Serial No. 115-10

                               ----------                              

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






























                            CLIMATE SCIENCE:
                   ASSUMPTIONS, POLICY IMPLICATIONS,
                       AND THE SCIENTIFIC METHOD

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 29, 2017

                               __________

                           Serial No. 115-10

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







       Available via the World Wide Web: http://science.house.gov
       
       
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-098 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
GARY PALMER, Alabama                 ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
























                            C O N T E N T S

                             March 29, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     4
    Written Statement............................................     6

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     8
    Written Statement............................................    10

Statement by Representative Andy Biggs, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    13

Statement by Representative Suzanne Bonamici, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    14
    Written Statement............................................    16

                               Witnesses

Dr. Judith Curry, President, Climate Forecast Applications 
  Network; Professor Emeritus, Georgia Institute of Technology
    Oral Statement...............................................    19
    Written Statement............................................    21

Dr. John Christy, Professor and Director, Earth System Science 
  Center, NSSTC, University of Alabama at Huntsville; State 
  Climatologist, Alabama
    Oral Statement...............................................    35
    Written Statement............................................    37

Dr. Michael Mann, Distinguished Professor of Atmospheric Science 
  and Director, Earth System Science Center (ESSC), The 
  Pennsylvania State University
    Oral Statement...............................................    51
    Written Statement............................................    53

Dr. Roger Pielke Jr., Professor, Environmental Studies 
  Department, University of Colorado
    Oral Statement...............................................    71
    Written Statement............................................    73

Discussion.......................................................    97

             Appendix I: Answers to Post-Hearing Questions

XDr. Michael Mann, Distinguished Professor of Atmospheric Science 
  and Director, Earth System Science Center (ESSC), The 
  Pennsylvania State University..................................   134

            Appendix II: Additional Material for the Record

Documents submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   270

Document submitted by Representative Suzanne Bonamici, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   304

Documents submitted by Representative Lamar Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   335

Document submitted by Representative Paul Tonko, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   352

Document submitted by Representative Dana Rohrabacher, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   361

Document submitted by Representative Clay Higgins, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   362

Document submitted by Representative Mark Takano, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   371

Document submitted by Representative Donald S. Beyer, Jr., 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   376

Document submitted by Representative Daniel Webster, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   482

Document submitted by Representative Darin LaHood, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   488

Document submitted by Representative Neal P. Dunn, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   489

 
           CLIMATE SCIENCE: ASSUMPTIONS, POLICY IMPLICATIONS,
                       AND THE SCIENTIFIC METHOD

                              ----------                              


                       WEDNESDAY, MARCH 29, 2017

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:03 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Smith. Good morning to everyone. The Committee on 
Science, Space, and Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Welcome to today's hearing called ``Climate Science: 
Assumptions, Policy Implications, and the Scientific Method.'' 
I'll recognize myself for five minutes for an opening 
statement, and then the Ranking Member.
    Today we will examine the scientific method as it relates 
to climate change. We must ensure that the underlying science 
that informs policy decisions is based on credible scientific 
methodology.
    I believe the climate is changing and that humans play a 
role. However, I also believe significant questions remain as 
to the extent. Our actions must be based on sound science. This 
is the only way we will be able to better address climate 
change.
    Before we impose costly government regulations, we should 
evaluate scientific uncertainties and ascertain the extent to 
which they make it difficult to quantify humans' contribution 
to climate change.
    Far too often, alarmist theories on climate science 
originate with scientists who operate outside of the principles 
of the scientific method. The scientific method is a simple 
process that has been used for centuries. It involves 
identifying a question, developing a hypothesis, constructing 
an experiment, and analyzing the results. If the results do not 
align with the original hypothesis, the hypothesis must be 
reexamined. The scientific method welcomes critiques so 
theories can be refined, and it avoids speculation about 
distant events for which there is no hard proof.
    Alarmist predictions amount to nothing more than wild 
guesses. The ability to predict far into the future is 
impossible. Anyone stating what the climate will be in 500 
years or even at the end of the century is not credible.
    All too often, scientists ignore the basic tenants of 
science in order to justify their claims. Their ultimate goal 
appears to be to promote a personal agenda, even if the 
evidence doesn't support it.
    The scientific method is regarded as the foundation of 
modern science. It ensures that scientific experimentation is 
neither arbitrary nor subjective, and that results can be 
replicated.
    In the field of climate science, there is legitimate 
concern that scientists are biased in favor of reaching 
predetermined conclusions. This inevitably leads to alarmist 
findings that are wrongfully reported as facts.
    The scientific method also requires that for a hypothesis 
to become a theory, a repeated validation of the results, 
called reproducibility, should be possible. However, a recent 
survey found that 70 percent of scientific researchers have 
tried and failed to reproduce the experiments conducted by 
other scientists. The lack of reproducibility is a warning that 
the scientific method is not being followed and that the theory 
may lack credibility.
    To restore faith in science, we must uphold the principles 
of scientific integrity. For example, the Science Committee 
heard from whistleblowers that National Oceanic and Atmospheric 
Administration (NOAA) employees put their ``thumb on the 
scale'' during the analysis of data. This was done to arrive at 
politically correct results that would disprove the absence of 
global temperature increases from 1998 to 2012.
    More recently, NOAA admitted to Committee staff that there 
was no legal justification for not complying with the 
Committee's lawfully issued subpoena requesting information. In 
fact, we learned that it was simply a political decision to 
halt any further debate on the subject. This is professional 
misconduct, if not worse.
    A similar event unfolded in 2009. Emails from East Anglia 
University scientists were uncovered and revealed that they 
frequently violated principles of scientific integrity and 
attempted to halt debate about climate science.
    Much of climate science today appears to be based more on 
exaggerations, personal agendas, and questionable predictions 
than on the scientific method. Those who engage in such actions 
do a disservice to the American people and to their own 
profession. Only when scientists follow the scientific method 
can policymakers be confident that they are making the right 
decisions. Until then, the debate should continue.
    [The prepared statement of Chairman Smith follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
      Chairman Smith. That concludes my opening statement, and 
the Ranking Member, the gentlewoman from Texas, Eddie Bernice 
Johnson, is recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman, and I thank 
you for calling today's hearing on climate science. I also want 
to thank our witnesses for being here.
    I want to start off today by placing our current situation 
in some historical perspective. The existence of the greenhouse 
effect was first proposed in the early 1800s. By the late 1800s 
scientists began to theorize that increases in carbon dioxide 
in our atmosphere could lead to global warming. By 1960, 
scientists had shown that carbon dioxide was in fact increasing 
in the atmosphere and humans were at least in part responsible 
for the increase.
    Scientific evidence of human-induced climate change rapidly 
increased through the 1970s. By 1982, even oil giant Exxon's 
own scientists were reporting to management that climate change 
due to carbon dioxide emissions was likely to occur, and that 
the effects of this climate change could be catastrophic.
    Since the early 1980s when Exxon internally acknowledged 
the reality of climate change, the scientific evidence 
confirming human caused climate change has piled up at an 
incredible rate. The current scientific consensus on human 
caused climate change is based on thousands of scientific 
studies conducted by thousands of scientists all across the 
globe.
    What does that word--consensus--actually mean? It means the 
Intergovernmental Panel on Climate Change, the IPCC, which is 
composed of scientists from around the world, has concluded 
that warming of the climate system is unequivocal, and that it 
is extremely likely that human influence was the dominant cause 
of global warming.
    The IPCC is not alone. The National Academies of Sciences 
has reached the same conclusion. In fact, the national 
academies of sciences in virtually every major country on Earth 
has endorsed the IPCC's central conclusions on climate change. 
Most relevant scientific societies, including AAAS, the 
American Physical Society, the American Geophysical Union, the 
American Meteorological Society, and a host of others have also 
affirmed the overwhelming scientific evidence for human-caused 
climate change.
    Unfortunately, the long-established scientific 
understanding of the reality of climate change ends at the 
doorstep of the Republican National Committee. Republicans in 
Congress overwhelmingly reject or minimize the scientific 
consensus on climate change. In this, they follow the leader of 
the Republican Party, President Trump, who once claimed that 
climate change was a hoax perpetrated by China. Even on this 
Committee on Science, Republican Members have postulated 
sometimes unique theories about climate change, some of which 
have become punchlines on late night television.
    It saddens me, really, that Majority Members of Congress 
and of this Committee in particular, consistently ignore the 
thousands of scientists around the world who maintain 
mainstream climate science views, instead repeatedly calling a 
handful of preferred witnesses who are here today over and over 
again to testify. For instance, the three witnesses called by 
the Majority today have collectively appeared in front of 
Congress at least 20 times over the past decade.
    Disturbingly, the Majority's unwillingness to accept the 
strong scientific consensus on climate change has led them to 
harass scientists who disagree with them. For example, the 
Majority on this Committee has issued subpoenas for the emails 
of climate scientists at NOAA, taking a page out of the 
playbook of fossil industry funded front groups who have 
harassed climate scientists across the country. In the process 
our Majority has brought condemnation upon this once great 
committee from across the scientific community.
    Perhaps in retaliation for this inconvenient truths, 
climate scientists are now being targeted with massive budget 
cuts by Republicans in the White House and Congress. These cuts 
would devastate our ability to understand and mitigate the 
future effects of climate change. I sincerely hope that someday 
soon the Committee on Science will cease lecturing and 
harassing scientists, and instead return to listening to and 
supporting them. America will be far better off if we do.
    And finally, I'm attaching a report prepared by the 
Democratic staff to my opening statement. This report details 
the Majority's nearly 2-year-long investigation into climate 
science paper that was prepared by NOAA scientists and 
published in the Journal of Science in June of 2015.
    I thank you, and yield back.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Smith. Thank you, Ms. Johnson. Do you want that 
report made a part of the record?
    Ms. Johnson. Yes.
    Chairman Smith. Okay. Without objection, that report will 
be made a part of the record, and I might also add that I know 
the Commerce Committee is conducting in their own 
investigation. If nothing else, it probably all proves that the 
science is not yet settled.
    [The information appears in Appendix II]
    Chairman Smith. We'll now recognize the gentleman from 
Arizona, Mr. Biggs, the Chairman of the Environment 
Subcommittee, for his opening statement.
    Mr. Biggs. Thank you, Chairman Smith. Thank you, panelists, 
for being with us today. I appreciate it. Thank you for calling 
this important hearing.
    As we move forward as policymakers in this new Congress and 
with a new Administration, it is important that we have the 
best available data to make informed decisions. It is also 
important that this data is grounded in sound science that is 
not biased politically or part of a larger political agenda.
    Our nation's climate change policy cannot be taken lightly, 
because the stakes are enormous. We simply must eliminate 
costly, unjustifiable regulations. For example, President 
Obama's climate change actions, such as the Clean Power Plan, 
have been estimated to cost billions annually, while having a 
negligible impact on the environment. It is for this very 
reason that President Trump issued an Executive order yesterday 
requiring the EPA to revisit this regulation.
    Not only did the previous Administration mute honest 
discussions that went against Obama's politicized climate 
change legacy, but it also perpetuated scandal in the industry. 
Dr. Bates' concerns regarding the Karl Study at NOAA is one 
such instance. The American economy should not be trifled with. 
If we are to make farsighted laws and regulations, the findings 
of climate research need to be clear, not muddled with bad 
science, name-calling, or scandals.
    Unfortunately, this muddling has tarnished the reputation 
of science and made many Americans wary of supporting climate 
change regulations, understanding that the underlying science 
is subject to manipulation. Rigorous scientific debate should 
never be silenced, and we must vigorously confront instances in 
which scientific integrity falls short.
    I look forward to an honest, level-headed discussion today 
not just about what we know about climate change, but also 
about the uncertainties that still need to be addressed.
    Thank you, Chairman Smith. I yield back the balance of my 
time.
    [The prepared statement of Mr. Biggs follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    Chairman Smith. Thank you, Mr. Biggs.
    And the gentlewoman from Oregon, Ms. Bonamici, the Ranking 
Member of the Environment Subcommittee, is recognized for an 
opening statement.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    It's truly unfortunate that the Science Committee is 
holding this hearing today. We're spending valuable time on 
efforts to try to discredit science and question the scientific 
process when we should be looking for ways to advance 
scientific research.
    Climate change is not a partisan issue. People who fish in 
Oregon, farmers in Oklahoma, servicemen and women in Virginia 
and around the country are all living with the results of 
climate change, regardless of their political affiliation. The 
economic, human health, and environmental consequences of 
climate change are well known, and our understanding about how 
to address the causes of climate change continues to improve.
    At a time when people in the United States and around the 
world are facing threats from rising sea levels, oceans that 
are becoming more acidic, more frequent and severe weather 
events, record droughts and flooding, and rising global 
temperatures, it's critical that we support scientific research 
about climate, and that we build on rather than break down 
decades worth of progress on this issue.
    Fortunately, 17 of my colleagues on the other side of the 
aisle have introduced legislation with a commitment to address 
climate change. The Science Committee should return to being a 
forum for robust discussions about our nation's scientific 
priorities, celebration of our scientific achievements, and 
development of bipartisan legislation that improves our 
understanding of science. Over the years, these efforts have 
helped grow the economy and created new jobs and new 
industries. Let's return to that Science Committee, rather than 
one where science is attacked and there is not enough focus on 
bipartisan work that benefits the millions of American people 
who are concerned that increased carbon emissions threaten our 
country and our planet.
    This hearing is going to follow a familiar pattern, with 
familiar faces offering fringe perspectives. We have heard from 
the three Majority witnesses in the past. Based on the 
testimony they've submitted, their positions on this issue have 
not changed.
    Science is not about trust or belief or personal agendas. 
Science is about knowledge and understanding. Scientists put 
their research and findings through rigorous peer review, and 
constantly seek to improve our understanding of the world 
through scientific process. Characterizing well-understood 
science as a trust exercise undermines the general principle of 
scientific integrity.
    There is a difference between a political position that 
denies the reality of climate change and scientific fact that 
climate change is real. Too often there is confusion about 
those distinctions in this room. Again, we should focus on 
solutions to the climate change problem not distractions from 
the reality.
    I look forward to hearing about possible solutions from Dr. 
Michael Mann today, a distinguished climate scientist who has 
been at the forefront of the international scientific 
community's efforts to examine, understand and respond to 
global warming and the consequences it has brought to our 
planet. And I hope that the day comes soon when we can all 
focus on and discuss solutions to climate change, and as the 
Chair of the Environment Subcommittee said, the stakes are 
enormous. I hope it's not too late for our children, our 
grandchildren, and generations to come.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Ms. Bonamici follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     Chairman Smith. Thank you, Ms. Bonamici.
    We have a particularly distinguished panel today, and let 
me introduce our witnesses. Our first witness is Dr. Judith 
Curry, President of the Climate Forecast Applications Network, 
and Professor Emeritus at the Georgia Institute of Technology. 
Dr. Curry performs extensive research that focuses on air and 
sea interactions, climate feedback processes associated with 
clouds and sea ice, and the climate dynamics of hurricanes. Dr. 
Curry also recently served on the NASA Advisory Council Earth 
Science Subcommittee, the DOE Biological and Environmental 
Research Advisory Committee, the National Academies Climate 
Research Committee, the Space Studies Board, and the NOAA 
Climate Working Group. Dr. Curry received her Ph.D. in 
atmospheric science from the University of Chicago.
    Our second witness is Dr. John Christy, Professor and 
Director of the Earth Systems Science Center at the University 
of Alabama at Huntsville and Alabama's State Climatologist. Dr. 
Christy has served as Lead Author, Contributing Author and 
Reviewer of the United Nations Intergovernmental Panel on 
Climate Change Assessments. In addition, he was awarded NASA's 
Medal for Exceptional Scientific Achievement. In 2002, he was 
elected a Fellow of the American Meteorological Society. Dr. 
Christy received his master's degree and Ph.D. in atmospheric 
sciences from the University of Illinois.
    Our third witness today is Dr. Michael Mann, Distinguished 
Professor of Atmospheric Science and Director of the Earth 
Systems Science Center at Pennsylvania State University. Dr. 
Mann's research involves the use of theoretical models and 
observational data to understand Earth's climate system. In 
addition, he was a Lead Author on the Observed Climate 
Variability and Change Chapter of the IPCC Third Scientific 
Assessment report in 2001. Dr. Mann is a Fellow of the American 
Geophysical Union, the American Meteorological Society, and the 
American Association for the Advancement of Science. Dr. Mann 
received his bachelor's degree in physics and applied math from 
the University of California at Berkley, his master's degree in 
physics from Yale University, and his Ph.D. in geology and 
geophysics from Yale University.
    Our final witness is Dr. Roger Pielke, Professor of the 
Environmental Studies Department at the University of Colorado. 
Dr. Pielke is the Founding Director and a Faculty Affiliate of 
the Center for Science and Technology Policy Research, and from 
2001 to 2016 was a Fellow of the Cooperative Institute for 
Research and Environmental Sciences. Dr. Pielke previously 
served as a Scientist at the National Center for Atmospheric 
Research. In addition, Dr. Pielke is a Senior Fellow of the 
Breakthrough Institute and has held several academic 
appointments. Dr. Pielke received his bachelor's degree in 
mathematics, his master's degree in public policy, and his 
Ph.D. in political science, all from the University of 
Colorado.
    We welcome you all, and Dr. Curry, we'll begin with your 
testimony.

           TESTIMONY OF DR. JUDITH CURRY, PRESIDENT,

             CLIMATE FORECAST APPLICATIONS NETWORK;

      PROFESSOR EMERITUS, GEORGIA INSTITUTE OF TECHNOLOGY

    Dr. Curry. I thank the Chairman and the Committee for the 
opportunity to offer testimony on this important topic.
    Prior to 2010, I felt that supporting the IPCC consensus on 
human-caused climate change was the responsible thing to do. 
That all changed for me in November 2009 following the leaked 
Climategate emails that illustrated the sausage making and even 
bullying that went into building that consensus.
    I came to the growing realizing that I had fallen into the 
trap of groupthink in supporting the IPCC consensus. I began 
making an independent assessment of topics in climate science 
that had the most relevance to policy. I concluded that the 
high confidence of the IPCC's conclusions were not justified 
and that there were substantial uncertainties in our 
understanding of how the climate system works.
    I realized that the premature consensus on human-caused 
climate change was harming scientific progress because of the 
questions that don't get asked and the investigations that 
aren't made. We therefore lack the kinds of information to more 
broadly understand climate variability and societal 
vulnerabilities.
    As a result of my analyses that challenge the IPCC 
consensus, I have been publicly called a serial climate 
disinformer, anti-science, and a denier by a prominent climate 
scientist. I've been publicly called a denier by a U.S. 
Senator. My motives have been questioned by a U.S. Congressman 
in a letter sent to the president of Georgia Tech.
    While there is much noise in the media and blogosphere and 
professional advocacy groups, I'm mostly concerned about the 
behavior of other scientists. A scientist's job is to 
continually challenge their own biases and ask how could I be 
wrong? Scientists who demonize their opponents are behaving in 
a way that is antithetical to the scientific process. These are 
the tactics of enforcing a premature theory for political 
purpose.
    There is enormous pressure for climate scientists to 
conform to the so-called consensus. This pressure comes from 
federal funding agencies, universities and professional 
societies and scientists themselves. Reinforcing this consensus 
are strong monetary, reputational and authority interests. 
Owing to these pressures and the gutter tactics of the academic 
debate on climate change, I recently resigned by tenured 
faculty position at Georgia Tech.
    The pathology of both the public and scientific debates on 
climate change motivated me to research writings on the 
philosophy and sociology of science, argumentation from the 
legal perspective, the policy process, and decision-making 
under deep uncertainty. My analysis of the problems in climate 
science from these broader perspectives have been written in a 
series of posts in my blog, Climate Et Cetera, and also in four 
published journal articles. My reflections on these issues are 
summarized in my written testimony.
    The complexity of the climate change problem provides much 
scope for disagreement among reasonable and intelligent people. 
Why do scientists disagree about the causes of climate change? 
The historical data is sparse and inadequate. There's 
disagreement about the value of different classes of evidence, 
notably, the value of global climate models and paleoclimate 
reconstructions. There's disagreement about the appropriate 
logical framework for linking and assessing the evidence. And 
scientists disagree over assessment of areas of ambiguity and 
ignorance.
    Policymakers bear the responsibility of the mandate that 
they give to panels of scientific experts. In the case of 
climate change, the U.N. Framework Convention on Climate Change 
framed the problem too narrowly. This narrow framing of the 
climate change problem essentially preordained the conclusions 
from the IPCC assessment process.
    There are much better ways to assess science for 
policymakers than a consensus-seeking process that serves to 
stifle disagreement and debate. Expert panels with diverse 
perspectives should handle controversies and uncertainties by 
assessing what we know, what we don't know, and where the major 
areas of disagreement and uncertainties lie. Let's make 
scientific debate about climate change great again.
    This concludes my testimony.
    [The prepared statement of Dr. Curry follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
  
    Chairman Smith. Thank you, Dr. Curry.
    Dr. Christy.

                 TESTIMONY OF DR. JOHN CHRISTY,

                    PROFESSOR AND DIRECTOR,

              EARTH SYSTEM SCIENCE CENTER, NSSTC,

              UNIVERSITY OF ALABAMA AT HUNTSVILLE;

                  STATE CLIMATOLOGIST, ALABAMA



    Dr. Christy. Thank you, Chairman Smith, and Committee 
Members for this opportunity to speak about climate change.
    I'm John Christy, Professor of Atmospheric Science at the 
University of Alabama in Huntsville, and Alabama State 
Climatologist. I have served in many climate roles including 
Lead Author of the United Nations IPCC. My main research is 
building data sets from scratch to help understand what the 
climate is doing.
    Of concern today is the proposition that the traditional 
scientific method has not been consistently followed in today's 
pronouncements about climate change made by so-called official 
panels. Science is simply a method that describes a pathway to 
discover information. In the method, the scientist makes a 
claim or a hypothesis about something and then proceeds to test 
that claim against independent data to see if the claim is 
false or not.
    In the first figure next, I show a vertical cross-section 
of the atmospheric temperature trends. Surface is at the 
bottom, stratosphere at the top, and the poles on either end, 
tropics in the middle. This figure is simply a claim common to 
climate models that the bulk atmosphere in the last 38 years 
should show considerable atmospheric warming due to extra 
greenhouse gases, especially in the outlined tropical section. 
So here we have a testable claim because we have observations 
with which to compare.
    In the next figure, I show the temperature progression from 
32 model groups with their average in red of that tropical 
section. We are interested in the red curve because that is the 
consensus upon which claims of future climate change are based. 
But don't overlook the widespread of model results in the dash 
lines. They're all over the place. There is no clear certainty 
on what the climate might do in the future.
    I also show observations on this chart of the bulk 
atmospheric trend you see with symbols, circles, squares and 
diamonds based upon three different types of measuring systems: 
balloons, satellites and merged product used in weather 
forecasting called re analyses. Each of these methods has three 
or four different groups contributing a result. This figure 
looks confusing, so to simplify the test of the claim, I show 
the next figure, which is just the trend lines that are being 
compared. What is obvious is that the warming hypothesized and 
claimed by climate models to have already occurred has not. The 
warming is clearly overstated. When these trends are formally 
tested, the scientific conclusion is that the consensus of the 
climate models--the red line--fails to represent reality of the 
actual changes in the bulk atmosphere, and that's a 
foundational climate metric.
    Little known to many is that this result was displayed in 
the most recent IPCC buried deep and without comment in chapter 
10, supplementary information. In my written testimony, is how 
that using that IPCC diagram, the same result as shown here, 
occurs. The warming rate of models on which policy is based can 
be scientifically falsified as representing reality.
    Interestingly, the IPCC result, in that result, the models 
without extra greenhouse gases reproduce the actual 
observations very well. Indeed, I am a co-author of a report in 
which we used a statistical model to reproduce to a large 
degree the atmospheric temperature trends without the need for 
extra greenhouse gases. In other words, it seems that Mother 
Nature can cause such temperature trends on her own, which 
should be no surprise.
    It is astounding and disturbing that such contradictory 
evidence to the IPCC's main model-based conclusion that humans 
caused most of the recent warming could be ignored so gallantly 
and willfully. In my view, the dispassionate analysis of 
scientific results on which policy decisions are based was 
sidetracked by those in control of the IPCC documents.
    This problem is pervasive in climate science. Grand 
compilations such as the IPCC, the National Climate Assessment, 
pronouncements from scientific societies, who never do any 
scientific work on the problem, by the way, for their results 
and even EPA's endangerment finding are on the whole written by 
those who are not scientifically dispassionate, and as such, 
the traditional method of science was circumvented, in my 
opinion.
    I'll close by noting that when someone says that precisely 
measuring the role of ``human activity on the climate is 
something very challenging to do and there's tremendous 
disagreement about the degree of impact'' that person is making 
a scientifically defensible statement as demonstrated by my 
testimony.
    Thank you.
    [The prepared statement of Dr. Christy follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
     
    Chairman Smith. Thank you, Dr. Christy.
    And Dr. Mann.

                 TESTIMONY OF DR. MICHAEL MANN,

                   DISTINGUISHED PROFESSOR OF

               ATMOSPHERIC SCIENCE AND DIRECTOR,

              EARTH SYSTEM SCIENCE CENTER (ESSC),

               THE PENNSYLVANIA STATE UNIVERSITY

    Dr. Mann. Thank you, Mr. Chairman and Members of the 
Committee. My name is Michael Mann. I am Distinguished 
Professor of Atmospheric Science at Penn State University, 
where I also direct the Earth System Science Center at Penn 
State. My research interests are in understanding the behavior 
of the Earth's climate system. I have served on several 
National Academy panels and committees. I'm a Fellow of the 
American Geophysical Union, the American Meteorological 
Science, and the Association--American Association for the 
Advancement of Science. I received numerous prestigious awards. 
I have authored more than 200 publications and several books.
    It is important to make clear at the outset that there is 
extremely broad agreement among the world's scientists on the 
basic facts of human-caused climate change. The U.S. National 
Academy of Sciences, all of the scientific societies of all the 
industrial nations, more than 30 scientific societies around 
the United States, at least 97 percent of scientists publishing 
in the field, all of these have concluded based on the evidence 
that climate change is real, is human caused, and is having 
adverse impacts on us, our economy, and our planet.
    Yet we find ourselves at this hearing today with three 
individuals who represent that tiny minority that reject this 
consensus or downplay its significance, and only one, myself, 
who is in the mainstream. That's 25 percent. That's a far cry 
from 97 percent, an inauspicious start for an honest discussion 
about science.
    I have devoted my life to understanding the natural world. 
In the case of climate science, it turns out that this lifelong 
journal of scientific discovery has also enormous societal 
implications. Earlier this week, for example, my colleagues and 
I published a study demonstrating that climate change is 
altering the jet stream in a way that is making extreme weather 
events--droughts, floods, heat waves--more likely, events like 
the 2011 Texas and Oklahoma heat wave and drought, the 2015 
California wildfires that affected the lives so many Americans. 
Other recent studies have shown the fingerprints of human-
caused climate change on extreme events like the fires that 
devastated America's heartland earlier this month, burning 
cattle alive. One local called these wildfires ``Our Hurricane 
Katrina.'' February's record warmth was made three times more 
likely by human-caused climate change, and that record warmth 
fueled the drought that set up these fires.
    Continuing to pose important questions and seeking to 
answer them using scientific tools and observations, as a 
scientist, that's what I love doing, but I'm here today because 
I'm also passionate about communicating what we know to the 
public and to policymakers. In my view, nothing could be more 
noble.
    Anti-science forces have launched a series of bad-faith 
assaults on climate science and climate scientists. I should 
know. I found myself at the center of these episodes more than 
once.
    We've recently seen the latest in this perpetual series of 
attacks, and the story is eerily familiar. As always, they 
focused on a particular individual, in this case, Tom Karl, who 
in 2015 led a study published in the premier journal Science 
that put the final nail in the coffin of the contrarian myth du 
jour that global warming had supposedly stopped. Never mind 
that we've now broken all-time records for three consecutive 
years and various published studies have convincingly 
demonstrated that human-caused global warming continues 
unabated, this Committee's Chairman, Chairman Smith, attacked 
Karl, aided by contrarian bloggers and the tabloid press. Smith 
even misrepresented an article I was co-author on, claiming it 
supported his attacks on Karl and NOAA. While we disagreed over 
some details, precisely the sort of healthy debate that many in 
this room would like to pretend doesn't exist in the scientific 
community, both papers agree that human-caused global warming 
continues unabated while natural variations continue as well.
    While such political theater plays out in Congress, the 
process of real science plays out in the peer-reviewed 
literature and at scientific meetings where scientists 
continuously challenge each other's findings. But just as our 
critics have intentionally ignored the many independent studies 
reaffirming the hockey stick curve for which I was attacked, so 
too have Karl's critics ignored the fact that his findings have 
been confirmed by the Berkeley Earth Project, a project funded 
by the Koch Brothers.
    When I was attacked by Joe Barton a decade ago over the 
hockey stick, I found support from moderate pro-science 
Republicans like John McCain and Sherwood Boehlert, the former 
Chair of this Committee, I would add. I am deeply appreciative 
of the efforts today by Republicans like Bob Inglis of South 
Carolina and former Reagan Administration officials James Baker 
and George Schultz to promote conservative climate solutions. 
It is time for other Republicans to put aside the anti-science 
and engage instead in the worthy debate to be had about how we 
solve this great challenge to all of humanity.
    Thank you.
    [The prepared statement of Dr. Mann follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Chairman Smith. Thank you, Dr. Mann.
    And Dr. Pielke.

         TESTIMONY OF DR. ROGER PIELKE JR., PROFESSOR,

               ENVIRONMENTAL STUDIES DEPARTMENT,

                     UNIVERSITY OF COLORADO

    Dr. Pielke. Thank you.
    I started my career in science and policy working for 
Chairman George Brown, who's in the red sweater to my left 
looking down on us, at this Committee 26 years ago. It's always 
a privilege to come back, and I know how hard the members and 
the staff work on all our behalf.
    My testimony focuses on how Members of Congress can better 
support scientific integrity and climate research. Let me tell 
you a story.
    Several months after I testified before this Committee in 
December of 2013, the White House posted on its website a six-
page essay by the President's Science Advisor, which claimed 
falsely that my testimony before this Committee was not 
representative of mainstream views and was seriously 
misleading. Now, we've all come to learn that no good happens 
when the White House releases false information, and my case 
was no different.
    One year later, Congressman Raul Grijalva opened a formal 
investigation of me and six other professors, three of whom are 
testifying here today. In his letter to my university's 
president, Mr. Grijalva justified the investigation of me by 
relying on the Science Advisor's false claims. In his letter, 
he introduced another false implication, that I and the other 
academics had potential conflicts of interest in failures to 
disclose corporate funding sources. He cited ExxonMobil and the 
Koch Foundations as possible sources of undisclosed funding 
that I might have received. My university conducted the 
investigation, and no surprise to me found I've never received 
any fossil fuel or Koch Foundation funding.
    In 2016, the University of Colorado's elected Board of 
Regents issued a unanimous bipartisan statement in support of 
me and academic freedom more generally.
    Despite being ultimately vindicated about the integrity of 
my research and my funding sources, as well as receiving the 
strong support of my university leadership, the investigation 
proved extremely harmful to my ability to work in the field of 
climate, yet scientific evidence in support of the conclusions 
I presented to this Committee in 2013 is stronger today. There 
is little scientific basis in support of claims that extreme 
weather events and specifically hurricanes, floods, drought and 
tornados and their economic damage has increased in recent 
decades due to the emissions of greenhouse gases. In fact, 
since 2013, when I last appeared here, the world and the United 
States have had a remarkable stretch of good fortune with 
respect to extreme weather as compared to the past.
    The lack of evidence to support claims of increasing 
frequency or intensity of hurricanes, floods, drought or 
tornados on climate time scales is also supported by the most 
recent assessments of the IPCC and the broader peer-reviewed 
literature on which the IPCC is based.
    My experience as an inconvenient academic is not unique. 
Politicians, including elected officials in Congress, and 
enthusiastic advocates from both sides of the aisle have 
targeted climate researchers whose peer-reviewed research they 
do not like including all four witnesses testifying here today.
    Such dynamics of delegitimatization are not unique to the 
climate issue. Drawing on my experiences, my research and that 
of the broader community focused on science advice, I offer 
several recommendations focused on how Members of Congress can 
improve the state of science integrity and climate science.
    Policymakers and scientists have developed well-established 
processes for assessing the state of scientific knowledge on 
subjects of relevance. Such process include federal advisory 
committees, those of the National Academies, the assessments of 
the IPCC, and many other nationally and internationally. Such 
processes work best when they are populated by a diversity of 
experts including those who may hold minority or even unpopular 
perspectives. Members of Congress have the standing and 
authority to call for such assessments to ensure through 
oversight that they are conducted with integrity and responsive 
to their information requests.
    In contrast, while the legislative process can be extremely 
effective in highlighting partisan differences on policy, it is 
not well-suited to provide an accurate characterization of the 
state of scientific understandings.
    Sometimes debates over science serve as a proxy for debates 
about policy preferences or political orientation. When Members 
of Congress and scientists participate in such proxy debates, 
it contributes to the pathological politicization of science.
    Oversight of the integrity of scientific assessments is an 
important and appropriate role for Congressional committees. 
However, the investigation of individual researchers is not an 
appropriate role for Congress and is unlikely to contribute 
positively to the upholding of scientific integrity. A 
bipartisan truce ending such investigations of individual 
researchers should start immediately.
    Congress should support the role of scientific assessments 
in providing an accurate perspective on questions asked by 
policymakers. We have plenty of knowledge and experience about 
how to arrive at accurate represents of the state of scientific 
understandings on any topic. It's a choice whether or not to 
use that knowledge and experience.
    Thanks again for the opportunity to share these views.
    [The prepared statement of Dr. Pielke follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
 
    Chairman Smith. Thank you, Dr. Pielke, and I'll recognize 
myself for questions, and let me address my first question to 
Dr. Curry.
    Dr. Curry, let me say at the outset, I know you could take 
an hour to answer this question. Unfortunately, you'll have to 
give me a summary, and the question is this: what are the 
uncertainties, complexities, biases involved with climate 
science or the study of climate science that need to be 
considered before we can actually make informed decisions about 
what to do about climate science?
    Dr. Curry. Well, the greatest uncertainties in both our 
understanding and our ability to model the climate system 
relate to these items. The first is what I call the 
thermodynamic feedbacks related to clouds and water vapor. 
Climate models have a large amplifying effect from clouds and 
water vapor. The magnitude of this amplifying effect and even 
the sine are in dispute. A lot about the oceans that we don't 
understand, how the ocean transports heat and carbon in the 
vertical is not well represented in the climate models. We also 
have these very large-scale long-term ocean oscillations, which 
play a huge role in determining our climate. These are not well 
simulated, and we don't have good documentation of the really 
long time period oscillations. The effects of the sun on 
climate, particularly the indirect solar effects, and I could 
go on and on, but I think those are the key issues.
    Chairman Smith. And you didn't even get into the biases and 
other uncertainties, but that's a good start, and that gives us 
an idea. Thank you, Dr. Curry.
    Dr. Christy, the PowerPoints you put up on the flat screens 
a while ago I thought were absolutely riveting, and at least to 
me very persuasive. My question is, why are both the satellite 
and surface temperature measurements so far below the climate 
model predictions? In other words, there's a conflict between 
the data and the predictions. Why is that?
    Dr. Christy. Well, there are a lot of answers, I suppose. I 
can speculate about some. What we've seen is that the models 
tend to be too sensitive to greenhouse gases, likely related to 
the fact the models tend to shrink clouds more than in reality 
so that more sunlight gets in and heats up the Earth more, so 
that's one idea that may be the reason. But overall, the basic 
answer is that models are too sensitive to extra greenhouse 
gases. The Earth has a way to release the heat that greenhouse 
gases try to build up.
    Chairman Smith. I think most constructive was the line that 
showed the actual observations as opposed to the modeling and 
how big of a discrepancy there was between the two. Thank you 
for pointing that out.
    Dr. Pielke, you in your testimony today mentioned that 
extreme weather events are not necessarily caused by climate 
change. In fact, the IPCC has said there's low confidence that 
there's any connection between climate change and extreme 
weather events. Why are some climate scientists claiming that 
there's a connection when you and other scientists and the IPCC 
all says there's likely not a connection?
    Dr. Pielke. Yeah, when you talk about trends and extreme 
events, it's really important to focus on the phenomena you're 
talking about--hurricanes, floods, drought--and look at those 
individually. It's long been a puzzle to me why there would be 
any controversy over this topic since something like a 
hurricane is pretty big. It's easy to see when it occurs. We 
have very good data on it. In the United States, the number of 
hurricanes and the intensity of hurricanes is down by 20 
percent since 1900. I don't put a lot of stock into that 
because you can start at different dates and get different 
trends, but the point is, there's no evidence to suggest that 
hurricanes either in the United States or globally are 
increasing, and the same goes for floods, drought and tornado. 
And don't believe me, you can look at the appendix that I 
provided with data from the IPCC. So why people would hang 
their hat on long-term trends in extreme weather is a puzzle.
    Chairman Smith. Thank you, Dr. Pielke.
    That concludes my questions, and the gentlewoman from 
Texas, the Ranking Member, is recognized for hers.
    Ms. Johnson. Thank you, Mr. Smith.
    We have seen some Congressional Republicans be critical of 
individuals scientists because the scientist's research does 
not align with their personal and political beliefs.
    Dr. Mann, what kind of effect does criticism of this type 
have on individual scientists, research institutions or even 
the entire fields of research?
    Dr. Mann. I think the attacks against scientists by 
individuals, groups, many of them allied with fossil fuel 
interests and fossil fuel front groups, are aimed at several 
goals. One of them is to silence climate scientists. If you get 
attacked every time you publish an article that demonstrates 
the reality and threat of human-caused climate change, if that 
causes you to become subject to Congressional inquiries and 
Freedom of Information Act requests, obviously that's very 
stifling, and I think the intention is to cause scientists to 
retreat. I also think that the intention of these very public 
attacks on climate scientists like Tom Karl is meant to send a 
chilling signal to the entire research community that if you 
too publish and speak about the threat of human-caused climate 
change, we're going to come after you too.
    Science and the progress of science that we have relied 
upon as a nation for our prosperity, science relies on the 
ability of researchers to carry out unfettered investigations 
into the natural world, and any time you start trying to game 
that system, it becomes very problematic.
    I would like to speak to one example from history. This is 
the example. Trofim Lysenko was a Russian agronomist, and it 
became Leninist doctrine to impose his views about heredity, 
which were crackpot theories completely at odds with the 
world's scientists. Under Stalin, scientists were being jailed 
if they disagreed with his theories about agriculture, and 
Russian agriculture actually suffered. Scientists were jailed. 
They died in their jail cells. And potentially millions of 
people suffered from the disastrous agricultural policies that 
followed from that. So that's what happens when fringe 
scientific views that might support a particular ideology are 
allowed to trump actual mainstream science.
    Ms. Johnson. Thank you.
    How do we make sure that political influence does not 
negatively influence the scientific process?
    Dr. Mann. Say that again, please.
    Ms. Johnson. How can we make sure that political influence 
does not negatively influence the scientific process?
    Dr. Mann. Well, you know, I agree with Roger Pielke, Jr., 
that we have to discourage investigations that are aimed at 
discrediting and threatening individual climate scientists 
about their research. Now, asking for a scientist's source of 
funding to me is fair game, and I'm more than--always more than 
happy to provide details about where my funding comes from. I 
think any scientist should be willing to do that, and Congress 
has a right to know that information as well.
    But going after scientists simply because you don't like 
the implications of their research, not because their science 
is bad but because you find the implications of their research 
inconvenient to the special interests who fund your campaigns, 
I would hope we could all agree that that is completely 
inappropriate. It's a threat to science, it's a threat to our 
prosperity as a nation, which relies on scientific research--
unfettered, honest, scientific research.
    Ms. Johnson. Thank you.
    Very quickly, Dr. Pielke has accused you and other climate 
researchers of being bullies toward individuals who don't agree 
with you. Have you been a target of personal attacks based on 
your research?
    Dr. Mann. Well, I have. As I just mentioned the hockey 
stick graph became a focus of attacks by Congressional 
Republicans like Congressman Joe Barton, Ken Kuncinelli, the 
Attorney General of Virginia. Of course, our research 
ultimately has been validated time and again and yet the 
attacks continue because it was an iconic research result. But 
I would like--and it spoke to the obvious fact that our globe 
is warming and it's due to human activity.
    But I would like to speak to this other point you raised 
about Dr. Pielke and others accusing climate scientists like 
myself of being bullies. I do think that's rather rich coming 
from Roger. He does have a history of bullying other scientists 
who criticize him and then sort of points to himself as the 
victim. Three years ago, he wrote a piece for Nate Silver's new 
FiveThirtyEight website that rejected the connection between 
climate change and extreme weather. Keep in mind, Roger isn't 
an actual climate scientist. A number of actual climate 
scientists including Kevin Trenberth, who is a distinguished 
researcher at the National Center for Atmospheric Research, 
challenged, publically challenged his statements in his 
article, and was the subject along with me of threatening 
emails from Roger. In fact, Kevin Trenberth's boss received a 
threatening email that implied potential legal action if he 
didn't apologize and retract his criticisms. Well, the emails 
were reviewed by FiveThirtyEight, by Nate Silver, and he 
decided that they were not in keeping with the values of the 
organization. He terminated Roger's involvement with 
FiveThirtyEight. Roger then presented himself as the victim. 
And so in this case, clearly Roger was the bully, sending these 
bullying emails to me and Kevin Trenberth and our bosses, and 
then trying to paint himself as the victim, and that just 
doesn't serve the discourse.
    Ms. Johnson. Thank you very much.
    Chairman Smith. The gentlewoman's time is expired.
    The gentleman from Alabama, Mr. Brooks, is recognized.
    Mr. Brooks. Thank you, Mr. Chairman. As an overview, so 
many questions, so little time. I'm going to direct my question 
to Dr. Christy from my hometown at University of Alabama in 
Huntsville, but if anyone else wants to add any comments, 
please feel free.
    When I say ``so many questions,'' first we've got the issue 
of whether global warming exists, and if so, to what degree, 
and if so, is it cyclical or manmade. But we've also got the 
question about if it is noncyclical, if it is manmade, what are 
the effects, and in that vein, I'd like to get your insight on 
some information that I received while I was in Antarctica 
about 15 or 16 months ago. The question focuses on sea-level 
rise or fall. What we generally see in the news media is if 
there's global warming and it makes sense at first blush, well, 
you're going to see ice melt and you're going to see the sea 
levels rise and we're going to have all sorts of damage done to 
our coastal areas as a consequence. But while I was in 
Antarctica, I met with a number of national science foundations 
who all contended that there was some degree of global warming 
but they added that if there was a slight or a modest global 
warming, that the sea levels will fall, not rise. Let me 
emphasize that: that the sea levels if there is slight or 
modest global warming will fall, not rise. And of course, that 
was somewhat perplexing because that's the exact opposite of 
what we hear in the news media on a regular basis, and this is 
what they said, and Dr. Christy, if you'd please share your 
insight as to whether you think their argument is legitimate or 
not, first, that the principal amount of ice on the planet is 
in Antarctica, roughly 85 percent, more or less, of the total 
amount of ice on the planet; second, that if the temperatures 
rise a little bit, then that air is going to carry more 
moisture, which in Antarctica is going to be deposited on a 
huge land mass that is larger than the size of the United 
States of America, by way of example, some levels of ice, I 
think the mean is around 6,000 feet deep, at the South Pole 
it's more than that, and some places in Antarctica as much as 3 
miles thick, and that it takes hundreds of years for that ice 
that has fallen in Antarctica to actually reach the coastline, 
which means that if the temperature goes up a little bit 
because of this effect, you're actually looking at more snow 
and ice being deposited on Antarctica and water being taken 
from the oceans, more than offsetting whatever melt there may 
be in Greenland or the Arctic.
    So what are your thoughts on that theory or argument that 
they were raising to us in Antarctica?
    Dr. Christy. Well, thank you for the question, Congressman. 
I will yield to our polar expert here, Dr. Curry, for the 
answer.
    Mr. Brooks. Well, dadgummit, I wanted to do something with 
a local boy, but go ahead, Dr. Curry.
    Dr. Christy. It's pretty hot in Alabama.
    Dr. Curry. Thank you, John.
    Well, the math balance of glaciers is a complicated topic, 
and we have, you know, new satellite technologies that are 
trying to measure this from laser altimetry and so on and so 
forth. But you see glacier accumulation in some regions due to 
increased snowfall and then there's a few regions where you see 
it melting, and this is true both for Greenland and Antarctica. 
The idea of warmer oceans translating into more snowfall seems 
to be a real one but then there's glacier dynamics. It's a very 
complex situation so there is something to what you heard, you 
know, that is a real mechanism, but how all this plays out for 
the glacier mass balance remains, you know, a topic of 
research, and it's really only, you know, the last decade or so 
that we have had really, really good measurements of glacier 
topography, and we can really track the mass balance. So we do 
need the observations from satellite and also field experiments 
to sort out this issue.
    Mr. Brooks. Well, moving to a NASA study from 1992 to 2008, 
they concluded that in Antarctica, you were seeing, while 
there's this global warming going on, a net addition of about 
100 billion tons of ice per year, and you talk about over the 
last decade. Is that 1992 to 2008 data accurate in your 
judgment or inaccurate?
    Dr. Curry. There's uncertainty but you've seen the 
accumulation over east Antarctic where on the west Antarctic 
ice shelves you're seeing net melting. So there's some spatial 
variability, and there is significant uncertainties in our 
estimates of all this, particularly the further back you go.
    Mr. Brooks. Anybody else want to add any comments to that 
issue? Dr. Mann?
    Dr. Mann. Yes. So we have widespread measurements now from 
satellites, direct measurements of the total ice mass contained 
in the ice sheets, and there is no question that the two main 
potential contributors to global sea-level rise, the Greenland 
ice sheet and the west Antarctic ice sheet, are losing ice, and 
we know that that loss of ice means that the ice sheets are 
contributing to sea-level rise already. Now, we hear so much 
about uncertainty as if uncertainty is a reason for inaction, 
but in this case, the uncertainties are breaking against us 
because we are actually seeing more rapid loss of ice from 
those ice sheets than the climate models that many here 
criticize had predicted in the past. That means that we are 
going to see more sea-level rise in the near term than the 
models had predicted. In this case, uncertainty is not our 
friend. It's breaking against us.
    Mr. Brooks. Dr. Mann, Dr. Curry, thank you.
    Dr. Christy, next time.
    Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Brooks.
    The gentlewoman from Oregon, Ms. Bonamici, is recognized.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    There have been many studies that have confirmed that of 
the thousands of peer-reviewed papers that have taken a 
position on the cause of global warming, 97 percent recognize 
the influence humans have on global warming, and only three 
percent reject or minimize the connection between humans and 
climate change. So the witness panel does not really represent 
the vast majority of climate scientists who have concluded that 
there is a connection between human activity and climate 
change. So sort of visualize 96 more climate scientists who 
agree that climate change is driven by human activity. I know 
we don't have that many seats at the dais but I just want to 
put that out there. For a balanced panel, we'd need 96 more Dr. 
Manns.
    So we know that human contributions to climate change have 
vast and alarming effects including rising sea levels, ocean 
acidification, melting glaciers. We just got the alarming 
report recently about the Great Barrier Reef. Climate change is 
damaging our environment, our economy, our food sources, and 
fossil fuel emissions also contribute to higher rates of 
asthma, lung and heart disease, threatening the lives of our 
children and grandchildren.
    So I'm proud to say that my home State of Oregon is taking 
action. In January of 2016, the Nature Conservancy convened the 
Oregon Business Leaders Greenhouse Gas Emission Task Force, and 
it's a coalition of business leaders who recently produced a 
report with strategies to reduce greenhouse gas emissions and 
at the same time maintain our business competitiveness. The 
action items include calling for Oregon building codes to 
promote energy efficiency, increasing federal investment in 
low-carbon technologies, addressing congestion in the 
metropolitan areas, and I applaud the Nature Conservancy and 
our business leaders in Oregon for rising to the challenge and 
coming up with commonsense solutions that benefit the 
environment and also help our businesses succeed in a changing 
world. We understand that it is not mutually exclusive that we 
can protect the environment and grow our economy.
    So Mr. Chairman, I request unanimous consent to enter the 
Nature Conservancy report into the record.
    Chairman Smith. Without objection.
    [The information appears in Appendix II]
    Ms. Bonamici. Dr. Mann, science continues to prove the 
connection between human activity and our changing climate, so 
instead of holding this unproductive hearing, what would be 
better for this Committee to do? How could we further 
scientific inquiry and investigate actions that we could take 
to respond to the current and future risks of climate change?
    Dr. Mann. Well, thanks very much for the question, and as I 
often like to say, actually scientists--science doesn't prove 
anything. Proof is for mathematical theorems and alcoholic 
beverages. But what science does do is establish at high levels 
of confidence, just like the theory of gravity. We haven't 
proved it but we don't jump off a cliff. We understand that 
it's real. And the same thing is true with climate change. In 
fact, by some measures, there is as deep a consensus about 
human-caused climate change as there is about gravity. It 
literally goes back two centuries to Joseph Fourier in the 
early 1880s.
    So as I've said before, what I would like to see, what I 
would hope we would see in Congress is a good-faith debate 
between politicians on both sides of the aisle advocating for 
solutions to this problem that are consistent with their 
ideologies, and I think it's great that they're Republicans and 
conservatives today who are out there saying to their fellow 
Republicans, let's put aside the anti-science. This is about 
U.S. competitiveness. The rest of the world is moving ahead. 
They're transitioning to renewable energy. They're actually 
tackling this problem, and we stand to get left behind.
    Ms. Bonamici. Thank you. I'm going to get another question. 
I did want to note that Mr. Pielke's testimony indicates he 
might support a carbon tax. I wish we were having a hearing 
about that.
    So we've also heard in the Committee and elsewhere in 
Congress criticisms of the climate models used by the National 
Oceanic and Atmospheric Administration, the IPCC and other 
bodies that understand and discuss responses to climate change. 
So there have been some like Dr. Christy who claim that the 
satellite data somehow disproves our understanding of climate 
change. So would you respond to that claim, and how should we 
consider the value of satellite and in situ observations as we 
work to better understanding our Earth's climate?
    Dr. Mann. Well, thanks for the question, and I would say, 
you know, that statement that the satellite data somehow 
disprove human-caused climate change, it's what I can an RUS. 
It's a ridiculously untrue statement. And the surface and near-
surface temperature records--in fact, if we can show Exhibit A 
from my written statement here, it shows that all of the 
surface and near-surface temperature records agree that there's 
a steady long-term pattern of warming. That's true for the 
temperatures measured by thermometers at the surface, the 
balloon measurements in the lower atmosphere, and both John's 
satellite data set and other estimates from the same satellite 
data.
    Now, I should point out that that's John's satellite data 
set after it's been corrected for numerous errors that he had 
made over the years and which came to light because of other 
attempts by other researchers to reproduce his results, and 
ultimately now with those corrections, his satellite record is 
basically consistent with these other records. They all show 
long-term warming, and I would add, by the way, that if he is 
right, that the mid and upper troposphere are not warming as 
fast as the models say, and there's a paper just out a week ago 
by Ben Santer, Susan Solomon, Presidential Medal of Science 
winner, a very austere team of climate scientists that has 
shown that his claim of the observations not showing the model 
predicted warming in the mid and upper troposphere is largely 
an artifact, an artifact of the fact that he's mixing in 
stratospheric temperatures. The stratosphere actually cools. In 
global warming, the lower part of the atmosphere including 
where we live, the troposphere warms, the stratosphere cools. 
His satellite estimates actually smear some of that cooling 
stratosphere into what he's calling the upper troposphere, and 
that's the reason for the discrepancy, and if he was right that 
it was warming less quickly than the models predict, it would 
actually imply the opposite of what he claimed earlier. It 
would imply a higher climate sensitivity because it turns out 
that one of the negative feedback, one of the ameliorating 
effects, so-called lapse rate feedback, would not be as strong 
as we think it is, so it would actually mean that the climate 
is even more sensitive to increasing greenhouse gas 
concentrations.
    Chairman Smith. The gentlewoman's time has expired.
    Ms. Bonamici. I'm out of time. Yield back. Thank you, Mr. 
Chairman.
    Chairman Smith. The gentleman from Arizona, Mr. Biggs, is 
recognized for his questions.
    Mr. Biggs. Thanks, Mr. Chairman, and I guess I'll go back 
to you and this ping pong ball discussion, Dr. Christy. You 
know, it was very interesting. Would you like to respond to Dr. 
Mann's explanation of your----
    Dr. Christy. Absolutely. What he said was incorrect. The 
satellites, balloons and reanalyses, 12--10 different measuring 
systems, show the same thing. All include the stratospheric 
portion, which is very tiny in the tropics. The models included 
it as well. And so it was an apples-apples comparison. What I 
showed was a legitimate scientific test.
    And I would just like to say one other thing. Science is 
not done by polling, it's done by numbers, and I showed numbers 
that can stand up, you know, under cross-examination. Those are 
the numbers that are out there and that we see the climate 
models do fail when compared against real data.
    Mr. Biggs. And Dr. Christy, continuing with you, we've 
heard referred to any basically if you don't toe to the 
consensus view on climate here that you're practicing anti-
science, and I was wondering what your comment would be on 
that.
    Dr. Christy. I would just say I don't practice anti-
science. People can say what--something you should understand. 
Scientists are people and they say crazy things all the time. 
They are people and human.
    Mr. Biggs. Sounds like Congress is really what it sounds 
like.
    Well, this hearing is really focusing on scientific method 
and some of our recent discourse might have gotten a little bit 
away from strictly scientific method but a lot of research on 
climate change receives significant funding from governments, 
and by extension, that means the American taxpayer.
    So my next question is focusing on us really trying to get 
at funding and how it might impact outcomes in research and 
potential biases. So the Congressional Research Service has 
estimated that between 2008 and 2013, the United States 
government spent $77 billion on climate change, and it's my 
understanding that the Government Accountability Office is also 
working on a similar in-depth report.
    So I'll go with you, Dr. Curry. Are there concerns that 
climate change funding across many federal agencies may be 
duplicative or even sometimes wasteful?
    Dr. Curry. Well, I think that the funding for observing 
systems, particularly satellite observing systems, is money 
very, very well spent, also for our ocean observing systems. I 
mean, this is critical information that we need, and I urge you 
to support continued funding of these.
    My concern is that too many announcements of opportunity 
from funding agents, you know, implicitly assume that climate 
change is caused by humans and that it's dangerous, and as a 
result, what we get is what a lot of research that I would call 
climate model taxonomy where scientists just analyze the output 
of the IPCC production runs and, you know, make claims that, 
you know, climate change causes syphilis or will stop growing 
grapes in California, or whatever. You've seen all these 
claims. And these are not useful studies. What we need is more 
fundamental climate dynamics research to understand how the 
climate system works on decadal to century time scales and uses 
understanding to develop new structural forms for our climate 
models. That's what I think we need to do to move all this 
forward.
    Mr. Biggs. And Dr. Pielke, is there any way to determine 
how much of the funding that we see going to support this, what 
has been called the consensus of science or those who question 
the consensus or perhaps may be skeptical? Is there any way to 
track that?
    Dr. Pielke. Let me say at the outset that the findings 
related to climate science have been largely consistent since 
the 1980s. Yeah, there's a lot of details but there is 
fundamental risk, it's not going away, and there are 
fundamental legitimate disagreements as you heard here.
    What has happened in climate science is that this idea of a 
97 percent consensus went from characterizing what the research 
looked like to characterizing what views were legitimately 
allowed to be aired. The fact that a scientist as distinguished 
as John Christy is excoriated in the media by politicians on 
social media on a daily basis for doing legitimate science 
tells us something about the pressures to conform to a 
particular point of view.
    But let me say, you can fund billions and billions of 
dollars more of climate research and the findings will be very 
much the same. There's fundamental risks, the future's 
uncertain, and we have choices about whether and how we might 
want to mitigate those risks.
    Mr. Biggs. Thank you. I'll yield back.
    Chairman Smith. Thank you, Mr. Biggs.
    The gentleman from California, Dr. Bera, is recognized.
    Mr. Bera. Thank you, Mr. Chairman.
    So a lot of people talked about the scientific method, and 
I am a scientist. I'm a doctor. I've spent a lot of time in the 
lab, a lot of time doing research, and as a physician, how I 
interpret the scientific method is to discover cause-and-effect 
relationships by asking questions, gathering and examining the 
evidence, and seeing if all available information can bring me 
to a logical conclusion. So let's do that. Let's actually go 
through the scientific method here and gather information.
    The temperature is rising. You know, Dr. Mann, what was the 
hottest year on record? Twenty sixteen, second, 2015; third, 
2014; fourth, 2010. So we see this trend. Even Dr. Christy's 
graphs show, you know, while there's variation show a trend 
line of warming temperature.
    Dr. Mann, is the polar ice melting?
    Dr. Mann. Yes.
    Mr. Bera. Does ice melt when it gets colder or hotter? I'm 
a simple person----
    Dr. Mann. I'm pretty sure about that one.
    Mr. Bera. Exactly. So--and is ocean temperature rising?
    Dr. Mann. Equally sure about that one.
    Mr. Bera. Okay. So we've gathered the facts. Now let's 
start to think about okay, what's--you know, those are the--
what's causing this. So we can agree that we ought to move the 
conversation towards what's causing it, and even Dr. Pielke, 
you said we can talk about how we mitigate those causes. Yes, 
no one's going to disagree there's variation in weather 
patterns. In my home State of California, we've gone through 
dramatic droughts in the past few years, not this year, though. 
We're having if not the wettest year on record, one of the 
wettest years on record. So there is variation. But that 
doesn't mean we ought not to be thinking about what's causing 
this and move the conversation.
    And we ought not to--whether you deny the climate change or 
deny that the Earth is getting hotter or you agree with that, 
as the vast majority of scientists do, we ought not to be 
persecuting our scientists. We ought to be having an open 
dialogue, and there's no problem with varying opinions but we 
ought to have an honest conversation about it.
    You know, do any of you think the--do any of you disagree 
with the fact that the Earth rotates around the sun? Pretty 
given science. But in 1633, Galileo was persecuted for putting 
forth that theory. Again, let's not go back to that time. Let's 
actually move this conversation forward. This is the Science 
and Technology Committee. Let's have an honest conversation 
about what's happening. We all agree the Earth is warming. We 
all agree that we're seeing more extremes of climate. Let's 
start mitigating that.
    Again, you could argue whether humans are causing this or 
if it's natural. I seem to think, you know, there's a human 
cause of this. So Dr. Mann, where would you proceed if you were 
to again advise this Committee?
    Dr. Mann. Well, let me first say the scientific method--
we've heard this term quite a bit. The Chairman keeps using 
this term. I do not think it means what he thinks it means.
    According to an article that came out a few days ago in the 
Journal of Science, Chairman Smith was on record at the 
Heartland Institute. This is a climate change-denying Koch 
Brothers-funded outlet that has a climate change denier 
conference every year, and Chairman Smith spoke at that 
conference----
    Chairman Smith. Dr. Mann, don't mischaracterize that.
    Dr. Mann. Let me finish my----
    Chairman Smith. No, they do not say that they are deniers, 
and you should not say that they are either.
    Dr. Mann. Well, we can have that discussion. I'd be happy 
to. Let me finish my statement.
    Chairman Smith. Well, be accurate in your description.
    Dr. Mann. I stand by my statements. Can I finish my point?
    Mr. Bera. I'd like to reclaim my time.
    Dr. Mann. Yes. So he indicated at this conference that he, 
according to Science, and I'm quoting from them, he sees his 
role on this Committee as a tool to advance his political 
agenda rather than a forum to examine important issues facing 
the U.S. research community. As a scientist, I find that deeply 
disturbing.
    Chairman Smith. Dr. Mann, who said that?
    Dr. Mann. This is according to Science magazine, one of the 
most respected outlets when it comes to science.
    Chairman Smith. And who are they quoting?
    Dr. Mann. This is the author, Jeffrey Mervis, who wrote 
that article. I'd be happy to send to Committee the article.
    Chairman Smith. That is not known as an objective writer or 
magazine.
    Dr. Mann. Well, it's Science magazine.
    Mr. Bera. I'd like to reclaim my time.
    Chairman Smith. And the gentleman from California reclaims 
his time.
    Mr. Bera. Dr. Mann, if you could submit that paper to me, 
you know----
    Dr. Mann. Absolutely.
    Mr. Bera. --we'd love to submit that for the record.
    Dr. Mann. Yes, it would be my pleasure.
    So just to continue, so science involves an objective 
search for truth, and that's what scientists do, and we 
challenge each other. It's not the lovefest that some would 
like to make it sound like. My good friend, who's no longer 
with us, Steve Schneider, used to characterize climate--or 
science in general as a contact sport because scientists are 
constantly contesting in the peer-reviewed literature, at 
meetings. The way you get ahead in science isn't by saying yes, 
I agree with everything, I agree with all the others. The way 
you get an article in the journals Nature and Science is by 
showing something different, something new, and so that's the 
self-correcting machinery that keeps--using the language of 
Carl Sagan, that keeps science on a path towards truth. What we 
stand to be in danger of here is to have that machinery 
basically destroyed by the politicization of science.
    Mr. Bera. I couldn't agree with you more. So let's not 
persecute our scientists. We can disagree, we can have robust 
debate, but let's actually have an honest, robust debate.
    Thank you.
    Chairman Smith. Thank you, Dr. Bera.
    And without objection, I'd like to enter into the record 
three articles on the so-called 97 percent consensus, which 
shows that there was no consensus. The 97 percent was derived 
from a small sample of a small sample, and the question wasn't 
whether humans contributed most of the change in climate but 
whether they contributed any part at all. The surprise is that 
it's not more than 97 percent.
    Anyway, the 97 percent figure has been misused today a 
number of times, and without objection, those articles are made 
a part of the record.
    [The information appears in Appendix II]
    Chairman Smith. The gentleman from Louisiana, Mr. Higgins, 
is recognized for his questions.
    Mr. Higgins. Thank you, Mr. Chairman.
    Dr. Mann, are you affiliated or associated with an 
organization called the Union of Concerned Scientists?
    Dr. Mann. No. I----
    Mr. Higgins. You're not affiliated nor associated with 
them?
    Dr. Mann. Am I associated with them? I know people who 
are----
    Mr. Higgins. Are you affiliated or associated with an 
organization called the Climate Accountability Institute?
    Dr. Mann. No. I mean, may----
    Mr. Higgins. You're not affiliated----
    Dr. Mann. --correspond with----
    Mr. Higgins. --or associated with them?
    Dr. Mann. I can provide--I've submitted my CV. You can see 
who I'm associated with and who I'm not.
    Mr. Higgins. These two organizations, are they connected 
directly with organized efforts to prosecute manned influence 
climate skeptics via RICO statutes?
    Dr. Mann. The way you've phrased it, I would find it 
extremely surprising if what you said was true.
    Mr. Higgins. Dr. Pielke, I'm going to ask you a series of 
short questions, please. Are hurricanes increasing?
    Dr. Pielke. It depends on what date you want to start, but 
on climate time scales in the United States and globally, no.
    Mr. Higgins. Are tornados increasing?
    Dr. Pielke. There's a lot of uncertainty about tornados but 
there's no evidence to suggest that they've been increasing.
    Mr. Higgins. Are floods increasing?
    Dr. Pielke. As the IPCC concluded, there's not really good 
data worldwide to know if they're going up or down.
    Mr. Higgins. Are droughts increasing?
    Dr. Pielke. Globally and in the United States, according to 
the EPA and according to the IPCC, the answer is no.
    Mr. Higgins. Why would you--can you explain why some would 
say that with such certainty that extreme weather events will 
increase given the fact that they have not?
    Dr. Pielke. Well, they may increase yet in the future, and 
there's a number of projections made by the IPCC that suggest 
that they might, and that's part of the uncertainty associated 
with science, but looking from the past to today, we have good 
evidence to be able to answer the question whether these 
phenomena have increased on climate time scales.
    Mr. Higgins. And some scientists have a hypothesis that 
extreme weather events will increase because of climate change, 
and how do they--how do those scientists, how would you explain 
they square that hypothesis with the reality that these extreme 
weather events have not increased?
    Dr. Pielke. Yeah, most--if you look at the IPCC and 
mainstream science, we shouldn't expect to see the signal of 
human-caused climate change and increasing extreme events for 
decades, and many decades into the future. So there's often a 
conflation of what's predicted, say, in 2100 with what we're 
observing today, and if we're seeing an increase in extreme 
events today, that would actually show that the models are 
wrong because they suggest we won't see it for many decades.
    Mr. Higgins. Thank you, sir.
    Dr. Mann, would you be able to at some future date provide 
to this Committee evidence of your lack of association with the 
organization Union of Concerned Scientists and lack of your 
association with the organization called Climate Accountability 
Institute? Can you provide that documentation to this 
Committee, sir?
    Dr. Mann. Yeah, so you haven't defined what ``association'' 
even means here, but it's all in my CV, which has already been 
provided to Committee.
    Mr. Higgins. Would you provide a statement----
    Dr. Mann. I'll send it again.
    Mr. Higgins. --to this Committee regarding your assertion?
    Dr. Mann. I will send it again.
    Mr. Higgins. Thank you, sir.
    Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Higgins.
    The gentleman from New York, Mr. Tonko, is recognized.
    Mr. Tonko. Thank you, Mr. Chair.
    As an engineer, I know a few things about uncertainty. I 
know, for example, that everything from a steel beam to a 
parachute has a certain very small probability of failure. We 
have to account for uncertainty to be able to build large 
buildings and great structures that last for generations. We do 
the math, we check out our work, and we test it. We go back 
over time and shore up any weak spots. And when everyone does 
their part to build and maintain and test them, these 
structures remain strong.
    Science works in a similar way: thriving on the uncertainty 
that lives between evidence and conclusions. So when a few 
individuals express doubt about climate change, scientists 
listen, check their theories against the available data, and 
continue to observe and improve. But like the failure rate of 
that steel beam, the uncertainty in climate change science is 
known and negligible.
    For every one scientist who disputes the fact that human 
activity is driving climate change, there are 17,352 who 
acknowledge human activity is the main driver of climate 
change. So if we have a handful of scientists here in this room 
today who are skeptical about the human role in climate change, 
there are tens of thousands more credible, trained scientists 
out in the world standing up for the scientific fact that 
humans are the major driver of climate change.
    It is notable that those tens of thousands of scientists 
are represented here solely by Dr. Mann. I want to thank Dr. 
Mann for being here today, and representing this overwhelming 
consensus.
    The scientific community thrives on skepticism and 
uncertainty but denial is something different. Unlike healthy 
scientific skepticism, climate change denial stands today as 
one of the great pillars in the pantheon of political 
manipulation. Decades ago, major players in the fossil fuel 
industry saw the issue of climate change gaining popular 
attention. They also realized that any serious effort to reduce 
carbon pollution and greenhouse gases could be a death blow for 
their industry. So instead of embracing the clear evidence in 
front of them that fossil fuels contribute to climate change, 
they launched one of the most successful misinformation 
campaigns in our American history, right up there with the 
tobacco industry lying about cancer risks.
    In 1998, the fossil fuel industry laid out its 
misinformation strategy and tactics in something they called 
the Global Climate Science Communications Action Plan. Mr. 
Chair, I ask to enter this document into the record.
    Chairman Smith. Without objection.
    [The information appears in Appendix II]
    Mr. Tonko. Thank you.
    This action plan said, and I quote, ``Victory will be 
achieved when average citizens understand and recognize 
uncertainties in climate science; media understands, recognizes 
uncertainties in climate science.'' The plan also called for 
identifying, recruiting and training a team of independent 
scientists to participate in media outreach. Their cause was 
not to better science or public education; it was to undermine 
the ability of science to inform our public and private 
decisions.
    The plan was devised by one dozen people from the oil and 
gas industry along with communications strategists--PR 
professionals. One of those individuals was Myron Ebell, whose 
name has recently surfaced again because he led President 
Trump's transition team at the EPA, and it seems certain from 
EPA Administrator Scott Pruitt's recent actions that he will be 
more interested in strategic communications and parlor tricks 
to distract the public from the reality of climate change than 
actually attempting to address these serious problems.
    So Dr. Mann, a question. Can you talk a little bit about 
how you see these sort of tactics and distractive techniques 
being played out in the discussions about climate change, 
please?
    Dr. Mann. Yeah. Thanks for the question. And indeed, we do 
see these attacks against climate scientists orchestrated in 
many cases by organizations and individuals tied to fossil fuel 
interests. You mentioned specifically Scott Pruitt, and of 
course, Scott Pruitt is on record saying that--this is his 
quote: ``I would not agree that human activity is a primary 
contributor to the global warming that we see,'' which is 
completely at odds with what the world's scientists have 
determined.
    Now, what is particularly concerning to me is that one of 
our witnesses here today, Judith Curry, supported that 
statement. She said, ``I do not find anything to disagree with 
in what he said,'' which means that she's clearly going against 
what the U.S. National Academy of Sciences has said, what every 
academic scientific organization in the U.S. that has weighed 
in on the matter has said, and I find that distressing.
    Now, to have an EPA Administrator who has such a position 
that's so at odds with the scientific evidence, there is no 
precedent, even in past Republican Administrations, under 
Nixon, under Reagan, under George H.W. Bush, they each had EPA 
Administrators that embraced science and actually that's where 
market-driven solutions to dealing with environmental problems 
came about. Nixon founded the EPA. George H.W. Bush under his 
wonderful EPA Administrator, William K. Riley, signed the 
Montreal--sorry--passed cap-and-trade legislation. Remember cap 
and trade? That came from Bush Administration as a market-
driven mechanism, a market-driven mechanism for dealing with an 
environmental problem.
    So what we have today with an EPA Administrator who rejects 
the overwhelming opinion of the world's scientists is 
completely at odds with what we have ever seen before in both 
Democratic and Republican Administrations.
    Mr. Tonko. Dr. Mann, thank you so much.
    And Mr. Chair, I yield back.
    Chairman Smith. Thank you.
    The gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Yes. I'd like to thank the Chairman for 
calling this hearing today because it exposes people to 
different ideas, and it exposes people and especially at a time 
when those who disagree with the mainstream are being 
brutalized into silence, this type of hearing is vital to hear 
the fundamental arguments.
    Unfortunately, from get-go, we have heard personal attack 
after personal attack after personal attack coming from those 
who are claiming to represent the mainstream of science, even 
to the point that our Chairman is attacked with a non-quote 
with an analysis of somebody else's interpretation of what he 
said, and we have our Chairman attacked like that. That is 
ridiculous. People should be ashamed of yourselves for people 
who continue to attack other people because they disagree. You 
call people deniers all you want. You can use every kind of 
name you want. You're not standing up to consensus. When we 
talk about how Mr. Lysenko was promoted by Stalin, that's the 
type of thing they did to the scientists in Russia because you 
don't agree with Mr. Lysenko, and now you can bet nobody except 
those who agree with Lysenko are going to be able to get a 
government research contract in Russia, the same as we've heard 
here in the United States from scientists who have great 
credentials who aren't able to get their--who haven't been able 
to get research grants because they're now labeled deniers and 
attacked personally. This is a disgrace to the scientific 
community.
    And let me just go into some thing here. Now, 
CO<INF>2</INF>, the theory of CO<INF>2</INF> changing the 
temperature of the climate, that is what basically we're 
talking about when we talk about manmade climate change. That's 
the theory. It's not whether or not we've cut down the forest 
in order to produce farmland, et cetera. It's CO<INF>2</INF> 
production. That's what they're talking about when they're 
proposing United Nations restrictions on our activities based 
on that theory because the globe is going to be affected by it.
    Now, was there a pause or wasn't there a pause in the 
increase of temperature of the climate at a time when there was 
massive increases in CO<INF>2</INF>? That seems to be a 
fundamental question of whether or not--now, the fact that 
today the pause is--it should be evident that at one point at 
least those people who are attacking this side admitted that 
there was a pause, and you can tell that by the very 
discussion. That is, we remember when the issue was global 
warming. We remember over and over again global warming, and 
now just some evolution, that now we call it climate change. 
Well, what that is, is a recognition, is there was a pause in 
the heating of the planet even by those people who are 
advocating the opposite now. That's why they call it climate 
change. Every time you call it climate change, you are 
admitting that yes, there was a pause, a major pause in 
temperature increase because before that, it was global warming 
over and over and over again. We heard that global warming.
    Let me ask Ms. Curry. You in particular, your testimony 
today was, I think, perhaps the most important testimony, and 
that is from someone who felt that she had to go along with the 
consensus and ignore facts that would lead--that would then 
lead to an honest conclusion. Could you give me your reaction 
to what I just said in terms of the way you're getting treated?
    Dr. Curry. Well, the issue--okay. You know, what advocacy 
groups say, what the media say, what anonymous bloggers say, 
you know, it's noise, but what I'm concerned about is the 
behavior of scientists, and you know, I've been called a denier 
per the Congressional record from Michael Mann's testimony. 
Judith Curry, the denier is now in the Congressional record. 
What kind of a behavior is that? This is not the behavior of 
scientists who are respectfully disagreeing and open to debate. 
I mean, I am not out there in the fringes. My main point is 
that I think there are a lot of uncertainties and that the 
climate models and the data et cetera are not fit for the 
purpose for drawing highly confident conclusions about what has 
been causing the recent warming.
    It's been warming for hundreds of years, and we can't 
explain all of that, you know, due to human causes. So I'm 
saying we need to think more broadly about this problem, and 
that's what I'm saying----
    Mr. Rohrabacher. Right.
    Dr. Curry. --and I get called a denier and who knows what 
else.
    Mr. Rohrabacher. Well, we've seen cycles. There have been 
cycles throughout the history of the planet of warming and 
cooling cycles. Whether or not man's use of CO<INF>2</INF> is 
now creating a warming cycle is what this is all about, and for 
scientists on either side to try to call names and try to beat 
somebody into submission, that's a Stalinist tactic. Those 
using the words ``denier'' are using a Stalinist tactic----
    Chairman Smith. The gentleman----
    Mr. Rohrabacher. --and it is just incredible for me to hear 
others trying to claim that the basis of their discussion is 
what all scientists and the rest of everybody else who 
disagrees is in some way not worthy of being called a 
scientist, they're deniers.
    Chairman Smith. Thank you.
    Mr. Rohrabacher. Mr. Chairman, I want to place on the 
record very quickly 300 names of 300 major scientists given--
who signed on to a letter by of course the head of the science, 
Dr. Linzen from MIT, asking us to get out of the convention for 
climate change----
    Chairman Smith. Without objection, so ordered.
    [The information appears in Appendix II]
    Mr. Rohrabacher. --300 prominent scientists. I'd like to 
also put for the record an in-depth study by a professor--and I 
don't know how to pronounce his name--Neals Alex Werner talking 
about sea level, a man who has spent a massive amount of time 
studying sea-level rise and shows what we are getting----
    Chairman Smith. Without objection, that'll be made a part 
of the record.
    [The information appears in Appendix II]
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Rohrabacher, and the 
gentleman from Louisiana is recognized for unanimous consent as 
well.
    Mr. Higgins. Thank you, Mr. Chairman.
    My research has clarified that the organization called the 
Climate Accountability Institute is the primary--is a primary 
organization calling for criminal prosecution of climate 
skeptics under RICO statutes. I'd like to enter it into the 
record, sir, from their website, from the Climate 
Accountability website, listed as one of the Climate 
Accountability Institute council of advisors, Mr. Michael E. 
Mann. I would like this entered into the record, Mr. Chairman.
    Chairman Smith. Without objection.
    [The information appears in Appendix II]
    Chairman Smith. The gentleman from California, Mr. Takano, 
is recognized for questions.
    Mr. Takano. Thank you, Mr. Chairman.
    Chairman Smith. I'm sorry. Mr. McNerney has returned, and 
he was ahead of you. The gentleman from California, Mr. 
McNerney, is recognized for questions.
    Mr. McNerney. I didn't know I was going to be so 
controversial here, Mr. Chairman.
    I want to thank my friend from California for his opinion 
on this issue. Mr. Rohrabacher, thank you.
    Mr. Mann--Dr. Mann, I'm looking at the Exhibit B, and I was 
hoping that this could be brought to the screen, and it's the 
so-called hockey curve. Now, what interests me about this is 
the way the shaded area diminishes over time. Could you explain 
that a little bit, how the shaded blue area diminishes as we 
get closer to the current day?
    Dr. Mann. Absolutely, and I'm glad you're showing that plot 
here because one thing it shows, our hockey stick curve, that's 
the blue curve that was published near two decades ago along 
with its uncertainties, the blue shading, you'll notice it's 
near identical to that green curve. That green curve is from a 
team of 78 scientists who published in the premier journal 
Nature Geoscience a few years ago using the most widespread 
database of proxy data ever brought to bear on a problem like 
this, and they got virtually an identical result to the one we 
had published decades ago. So to those who claim that the 
hockey stick has been discredited, just the opposite is true. 
The reason it's accepted is because other scientists using 
different methods, different data, coming at the problem from 
different angles have all come up with the same result, and 
that's how science works.
    Mr. McNerney. And that's consistent with the scientific 
method?
    Dr. Mann. Exactly. That's how science works. If your result 
is wrong, it's going to be discovered pretty quickly, and 
that's what happened with John's satellite records, which he 
originally claimed showed cooling. Ultimately it was discovered 
that there was an algebraic error in their code and a sine 
error like a minus where there's supposed to be a plus, and now 
we have a consensus where John's updated estimates are more or 
less in keeping with the other estimates. That's how science 
works.
    Now, you ask why does the uncertainty become so large back 
in time? So let me add, by the way, that the word 
``uncertainties'' appeared in the original article. To those 
who claim that we are trying to hide uncertainty, that we don't 
want to talk about uncertainty, the words ``uncertainties'' and 
``limitations'' appeared in the title of this original article, 
and that's something we focused on. You can see those 
uncertainties do get quite large as you go back in time because 
you have less data, you have less paleo data as you go farther 
back into the past.
    Now, with some of these newer efforts like this pages 2K 
estimate, the green estimate, they have much more widespread 
data, the uncertainties are now smaller, and that's how science 
works. You refine a result, you get a better estimate. Other 
scientists continually challenge each other, and that's Carl 
Sagan's self-correcting machinery.
    Mr. McNerney. Thank you. Why is it so narrow now in the 
current time, the uncertainty region?
    Dr. Mann. Yeah, because we've got widespread thermometer 
data over the last century and a half, so as we get more data, 
the uncertainties get smaller, and the red curve shows the 
instrumental record. We don't need paleo data to tell us what's 
happened to temperatures over the past century and a half. 
We've got widespread thermometer measurements for that.
    Mr. McNerney. And these are measurements in the ocean and 
the atmosphere and all over the whole planet?
    Dr. Mann. That's right, and to people who say, you know, 
they don't trust a surface temperature record, well, we've got 
measurements from the ocean surface, we've got measurements of 
the land and for all the continents. We've got the southern 
hemisphere, we've got the northern hemisphere. They all point 
in the same direction. We've got a lot of independent 
information from holes in the ground, bore holes, an 
independent way of estimating surface temperatures back in 
time, dozens of independent lines of evidence that all come 
together telling us the same thing. That's how science works. 
That's why there's a consensus, not because we're standing 
around holding hands because independent teams of scientists 
coming at the problem from different angles arriving at the 
same consistent answer over and over again.
    Mr. McNerney. Thank you. In his testimony, Dr. Pielke 
asserts that since 2013, the world and the United States have 
had a remarkable stretch of good fortune with respect to 
extreme weather as compared to the past. Would you respond to 
that, please?
    Dr. Mann. Yes. So Roger is, you know, pointing to outdated 
reports, outdated data. Three years ago, he actually posted the 
following on his blog. He said, ``I am no longer conducting 
research or academic writing related to climate. I am not 
available for talks, and on the climate interest, I have no 
interest in speaking with reporters or giving testimony before 
Congress.'' That's what he said back in 2015. Well, that's, you 
know, three years ago. There has been a lot of progress over 
the past three years. We just published an article in the 
Journal of Scientific Reports a few days ago that reaffirms 
what scientists are now finding. There are teams of scientists 
now, whole teams of scientists, when there's an extreme event, 
they can use what's known as detection and attribution. They 
can actually compare models and observations and estimate how 
much more likely that event might have been made by human-
caused climate change, and in many of the extreme droughts and 
flooding events that we've seen in recent years, those groups 
have positively attributed those events. They've said that 
those events were sufficiently unlikely to have happened 
without human-caused global warming that we can say at a 
relatively high level of certainty that climate change did 
impact the event, not that it created the event; it made it 
worse, it made it bigger.
    Mr. McNerney. Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. McNerney.
    The gentleman from Texas, Mr. Weber, is recognized.
    Mr. Weber. Thank you, Mr. Chairman.
    I think it's a sad day when one of our witnesses lectures 
us about the number of witnesses we have and how many times 
that they've been here to testify. It's odd to me that he can 
remember how many times they've testified but he cannot 
remember being associated with Climate Accountability 
Institute. That certainly seems to be a lack of--a convenient 
lack of memory.
    So having said that, I'm going to go ahead and get to my 
questions. This will be for you, Dr. Curry, and I'm sorry that 
you've been demonized and it's been written in the 
Congressional record that you are a climate denier. You 
shouldn't have to endure that, you know, just because you might 
have a differing opinion, what we would call a minority report. 
I don't think that you should have to endure that.
    I also remember, by the way, that if I remember correctly, 
Mark Twain said that sometimes a majority means all the fools 
are on one side. So there is that.
    Dr. Curry, would you characterize any of the climate 
policies discussed in the United States such as major 
industrial CO<INF>2</INF> restrictions as flexible and 
adaptive?
    Dr. Curry. No. I'm concerned about--you know, we're facing 
a problem with--characterized by deep uncertainty and trying to 
fit this into a command-and-control kind of solution with 
climate models I think is a mismatch to this extremely complex 
and wicked problem.
    Mr. Weber. So they're not--in your opinion, they're not 
flexible and adaptive, but scientists--science is supposed to 
be about the ongoing investigational study and adapting when 
necessary. Is that correct?
    Dr. Curry. That would certainly be one approach that I 
think is consistent with the kinds of deep uncertainty we're 
facing with this problem.
    Mr. Weber. Sure. Okay.
    How about you, Dr. Christy? Would you describe those major 
industrial CO<INF>2</INF> restrictions being discussed as 
flexible and adaptive?
    Dr. Christy. Well, what I understand is that those 
regulations are based upon knowing how the system operates, how 
the climate system operates. One of the fundamental things 
about science is that when you understand a system, you can 
predict its behavior. I've demonstrated that the climate models 
we have now cannot predict even predict from the past a major 
climate metric, the bulk temperature of the atmosphere.
    Mr. Weber. So they're not flexible and adaptive?
    Dr. Christy. Well, we don't know what's going to happen in 
the future so how can you then say well, this regulation is 
going to have this consequence. We don't have confidence there.
    Mr. Weber. Dr. Mann, I'll give you a shot at that. Are they 
flexible and adaptive, those restrictions that we're discussing 
on CO<INF>2</INF>?
    Dr. Mann. I'm not sure why you're asking me that question. 
Obviously----
    Mr. Weber. Because you're a learned scientist and you're 
here to participate in the discussion.
    Dr. Mann. Yeah, that's a matter of policy that you're 
asking about, and I've tried to be quite clear in my view that 
there is a worthy debate to be had about what policies we 
invoke to deal with the problem----
    Mr. Weber. So now it's worthy and it's not climate deniers. 
You----
    Dr. Mann. No, you misunderstood what I'm saying. There's a 
worthy debate to be had about the solutions to this problem. 
There is no longer a worthy debate to be had about whether the 
problem exists.
    Mr. Weber. That is your opinion.
    Dr. Mann. That's the opinion of the overwhelming community 
of scientists around the world.
    Mr. Weber. And yet the EPA won't release that data.
    I'm going to move on to you, Doctor. Is it Pielke? Is that 
how you say it?
    Dr. Pielke. Yes.
    Mr. Weber. In your opinion--you're watching this. This is 
important to you, I'm sure. You all are watching this. Are the 
restrictions being discussed flexible and adaptive in your 
opinion? Do you have an opinion?
    Dr. Pielke. Yes, I do. I've written a book on climate 
policy. And regulation has a very important role to play in 
bringing mature or near-mature technologies into deployment. 
Regulation itself is not a very good tool in stimulating R&D or 
fundamental innovation to create new technologies and so if in 
the absence of energy system innovation regulations will have 
marginal effects but they won't have transformative effects 
like are being called for with the----
    Mr. Weber. So I'll continue with you then and go back the 
other way. So in your opinion, before we make these kinds of 
major, major restrictive regulations, wouldn't we want to be 
absolutely sure about the data, have the EPA release it, and 
why in the world would we demonize people who want that? 
Wouldn't we want transparency from our own government?
    Dr. Pielke. Well, my view, which may not be popular among 
anyone here, is that scientific uncertainty is not going to be 
eliminated on this topic before we have to act. If we want to 
improve energy technology, energy innovation for reasons of 
competitiveness, for air pollution benefits, for energy access 
around the world, we have plenty of justification for the U.S. 
to be a leader. Regulation plays a part in that but so too does 
investment in new technologies. To fund that, you guys might 
think about a low-carbon tax, one that's maybe 2 or 3 pennies 
on a gallon of gas, raises hundreds of billions of dollars to 
bring those new technologies, and if the technologies exist, 
it'll be a lot easier for you guys to regulate it because it 
won't have costs that will affect people.
    Mr. Weber. Well, now that he's uttered blasphemy, Mr. 
Chairman, my time is expired and I'll yield back.
    Chairman Smith. Thank you, Mr. Weber.
    Back to the gentleman from California, Mr. Takano.
    Mr. Takano. Thank you, Mr. Chairman.
    Dr. Mann, last year Chairman Smith cited one of your papers 
in an attempt to contradict the findings of a NOAA study that 
disproved the theory of a global warming hiatus. In questioning 
then-Administrator Kathy Sullivan, he asked ``Do you still 
stand by the Karl study's conclusions or do you now recognize 
that these conclusions might have been weak and agree with the 
Nature scientists?'' Well, Dr. Mann, you are one of those 
Nature scientists, correct?
    Dr. Mann. That's absolutely correct.
    Mr. Takano. By Nature, I mean the Nature magazine. How do 
you respond?
    Dr. Mann. Yeah, well, I find it unfortunate that our work 
was misrepresented in that way. Our work in no way challenged 
the integrity of Tom Karl's work. I have the utmost respect for 
Tom Karl as a scientist and as a human being, and he has the 
utmost integrity as a scientist. Our paper expressed an honest 
scientific difference of opinion. Yes, that's what scientists 
do. We fight over interpretations and details, precisely the 
sort of challenges again that the critics like to pretend 
doesn't take place, and in this case, it was a good-faith 
disagreement over how to characterize long-term warming trend. 
We weren't disagreeing about whether there's a long-term human-
caused warming trend; we were simply contesting the 
interpretation, is it sort of a step-like trend like that or is 
it a more wavy trend like that, and what we weren't disagreeing 
about was that there's a long-term trend and that it's caused 
by increasing greenhouse gas concentrations.
    Finally, let me say that other independent scientists 
including scientists, I'll say it again, funded by the Koch 
Brothers have come up with precisely the same result that Tom 
Karl came up with and they said that they were able to download 
online all of the required raw data that was necessary to 
reproduce his findings, so the claim that he hadn't archived 
and provided the data necessary for other scientists is just 
false.
    Mr. Takano. Well, in fact here, I have a letter, actually 
two letters signed by all 11 of those Nature scientists 
including one from my own home State of California rejecting 
the Chairman's interpretation of their work. I would like to 
have these letters included into the record.
    Chairman Smith. Without objection.
    [The information appears in Appendix II]
    Mr. Takano. Dr. Mann, I think it's important to take a 
moment and address those who suggest that those of us who 
believe and know that climate change is occurring are somehow 
asking others simply to trust us. Science is not about trust or 
belief. It is the pursuit of knowledge and understanding. 
Sweeping statements and allegations about climate change and 
other issues that are not supported by any accepted scientific 
knowledge or often facts may be the calling card of this new 
Administration. But it is imperative that we not let such 
irrational rhetoric distract people from understanding how 
science works. The American people know that our climate is 
changing and they understand that we need policies to protect 
our health and environment.
    Dr. Mann, is this distinction between trust and 
understanding important?
    Dr. Mann. It absolutely is, and you know, when it comes to 
trust, I trust the U.S. National Academy of Sciences, which I 
might add was founded by a Republican President, Abraham 
Lincoln, in the 19th century to inform Congress about matters 
of policy-relevant science, and they have weighed in. The 
world's scientists have weighed in. And you know what? It 
doesn't matter if individual scientists are bad persons. We all 
have faults as human beings. If our understanding depended on 
one or a small number of individuals, their opinions, then of 
course we would not accept these findings as valid. It's the 
fact that the entire community of climate scientists around the 
world arguing back and forth in the peer-reviewed literature 
contesting each other at meetings have all from different 
directions come to the same conclusion and all of the 
scientific assessments that have been done including the U.S. 
National Academy of Sciences back in the Bush Administration--
George W. Bush in his first term--when the IPCC had just 
published their finding that climate change is real and human-
caused, the Bush Administration was skeptical about that 
finding so they wanted an independent assessment. They asked 
the U.S. National Academy of Sciences to assess what the IPCC 
had said. The U.S. National Academy of Science after 
independently reviewing the literature and soliciting 
independent reviewers with a variety of perspectives came back 
and said well, you know, the IPCC, what they said was basically 
right.
    That's--those are the facts, and we can't dispute the 
facts, and it doesn't matter--you know, the individual 
personalities of scientists, each of whom are human beings and 
have their own personal flaws, if that mattered, it would be a 
problem. The scientific process works because that doesn't 
matter. Regardless of how good or bad a person you are, your 
claims will be independently tested by other scientists.
    Mr. Takano. Its reproducibility----
    Chairman Smith. The gentleman's time has expired.
    Mr. Takano. --reproduction and corroboration by peers.
    Dr. Mann. Absolutely.
    Mr. Takano. Thank you.
    Chairman Smith. Thank you, Mr. Takano.
    Before recognizing the gentleman from Florida, Mr. Webster, 
without objection, I'll put into the record an op-ed from the 
Wall Street Journal called Keeping Cool about Hot Temperatures, 
which points out that even though it is claimed that 2016 was 
the hottest year in record and 2015 the hottest year on record 
before that, 2014 the hottest year before that, all three 
instances, the temperatures were within the margin of error and 
that in fact in 2014, NASA admitted that they were only 38 
percent confident of that temperature. That's less than half.
    [The information appears in Appendix II]
    Chairman Smith. The gentleman from Florida, Mr. Webster, is 
recognized.
    Mr. Webster. Thank you, Mr. Chair, and thank you for 
holding this hearing. It's been very informative.
    Dr. Curry, I'll ask you. You were a professor at my alma 
mater so I did talk to Dr. Peterson here on Monday about some 
things, not about climate change, but anyway, I'd like to ask 
you what caused the Ice Age?
    Dr. Curry. Well, the Ice-- I mean, the big Ice Ages, the 
very big Ice Ages?
    Mr. Webster. Yes.
    Dr. Curry. Well, it has to do with----
    Mr. Webster. I know you weren't there but----
    Dr. Curry. --yeah. The prevailing theory, the so-called 
Milankovitch theory, that it has--it's related to the orbital 
variations, changes in the tilt of the Earth's axis, and then 
there's complex feedbacks with ocean circulations and the 
carbon cycle. So do we--are we at a point where we have 
complete predictive understanding of the Ice Ages? The answer 
is no, but that--you know, our current understanding relates to 
Earth-sun geometry, long-term deep circulations in the ocean 
and the Earth's carbon cycle. All these things are----
    Mr. Webster. So number one, all of those were natural 
causes.
    Dr. Curry. Yes.
    Mr. Webster. Number two, it just proves the point that 
there is a lot we don't know about what goes on in years 
whether it be 40 years or thousands of years or whatever.
    So when I first ran for office, which is many years ago, 
long before this issue was an issue, there was another issue, 
and it was called the coming Ice Age. There was a big article 
in one of the magazines, I think it was Time magazine, when I 
was running for office. I read everything. I just wanted to 
know as much as I could in case some question came up, so I 
read and read and read. Well, anyway, this article was by the--
this was the standard belief of most scientists at the time in 
the late 1970s, and it talked about the coming Ice Age. So you 
kind of wonder, we had some charts up there that started in 
late 1979. I don't know, maybe those before that were the other 
way, and so the only growth in the temperature was a re-
energizing what the temperature used to be before it was 
cooling.
    And so it just seems like there is such a short period of 
time. We're looking at this data. It's calculated within, you 
know, down to maybe four-tenths of a degree, and if we look 
back thousands of years, there might be a better pattern to 
see, and granted, we may not have that data but it seems like 
we're basing a lot of things on current data, not on 
necessarily what's happened in the world in general, and we're 
blaming it on one set of circumstances, which may or may not 
have been the case for other things that occurred and in some 
cases there weren't any humans.
    Dr. Curry. Well, if you look at the climate of the 20th 
century, you saw a pretty steep warming trend in the early part 
of the century up until about 1940, 1945, and this is at a time 
when there was very little human input of carbon dioxide, and 
then we saw a cooling trend from the mid-1940s to the mid-
1970s, and this is what I guess triggered concerns about the 
Ice Age. And then there was a massive reorganization of ocean 
circulations in the Pacific in the mid-1970s, the so-called, 
you know, great climate shift, and then we saw increasing 
temperatures following that. And so trying to sort out what 
caused the early warming period and then the mid-century 
cooling period, I've argued that we end to understand this 
before we have highly confident attribution arguments about the 
warming since the mid-1970s. So there's a lot of natural 
variability, largely associated with the multidecadal and 
longer ocean oscillations that are not well represented in the 
climate models, and this is why I've argued for fundamental 
climate dynamics research to try to better understand this.
    Mr. Webster. So if the scientists of that day just not too 
long ago believed that there was a possibility of a coming Ice 
Age and then all of a sudden it changes, is that----
    Dr. Curry. Well, that----
    Mr. Webster. It seems like some of the data's being left 
out.
    Dr. Curry. Well, that was before we had, you know, climate, 
you know, climate modeling. Global climate modeling was in its 
infancy, you know, in the 1970s, so we really didn't have that 
as a tool to help us understand but, you know, we understand a 
lot more now than we did in the 1970s.
    Mr. Webster. But the point is----
    Chairman Smith. The gentleman's time----
    Mr. Webster. --if there was----
    Chairman Smith. The gentleman's time has expired.
    Mr. Webster. --if the scientists of that day with the 
amount of information that they had at that time believed this 
for a certainty and now today we believe something for a 
certainty, we don't know what kind of technology is going to be 
available 40 years from now.
    Dr. Curry. That's the unknown unknowns.
    Mr. Webster. So all I can say is, it seems to me like the 
more I hear, the more I believe that there--this is an 
embezzlement and flow, not necessarily a constant among even 
those if they are the majority of scientists, it's going back 
and forth, not necessarily stagnant.
    Dr. Curry. There's definitely oscillations.
    Mr. Webster. I yield back.
    Chairman Smith. Thank you, Mr. Webster.
    The gentleman from Virginia, Mr. Beyer, is recognized.
    Mr. Beyer. Yeah, thank you, Mr. Chairman, very much. I'd 
like to begin just by welcoming a constituent who is shadowing 
me today, Jairo Medrano, who is a history buff and attending 
George Washington Middle School in Alexandria. Jairo, thank you 
for being with us.
    Thank you very much for being--testifying. I have this 
great sense of a food fight among scientists, and I guess each 
one of you in different ways has talked about what Dr. Curry 
called was gutter politics. And I apologize for that, and I was 
trying to think why can't we all just get along, and realized 
it's because the stakes are so high. You know, if the vast 
majority of scientists are correct about the human impact from 
global warming, you have 55 million people in Bangladesh that 
will be displaced, or many countries, including the Maldives, 
that disappear from the planet.
    I was just in India with Congresswoman Esty, and they 
talked about how climate change there already is dramatically 
changing agricultural patterns and their ability to feed 1.3 
billion people. Or the demonstrated increased from CDC and lung 
disease and in tropical diseases here in the United States. Or 
on a more trivial measure, not for them, the outdoor industries 
are in a panic about what it's doing to climbing and skiing and 
hunting and fishing, and many, many other things. So it's--
there's a lot at stake, which is why this gets so high.
    I'd like to ask that the--Dr. Christy's third slide be put 
up just a for moment, and just point out that the average of 
the 102 climate models is 1 degree centigrade increase over 
those 36 years, and the observations are half a degree. So not 
wildly different, it's half, but it's still--looks like a 
straight line up from 1976 to 2015. And then replace it with 
Exhibit A from Dr. Mann, which is exactly half a degree from 
1979 to 2015. Those two data sets are very, very clear.
    And I ask Dr. Mann, so the 102 isn't one degree over that 
36-year period of time, it's only half a degree centigrade or 
1.8 Fahrenheit. And we also look--two other quick data sets. 
CO<INF>2</INF> parts per billion in 1979 was 330. They were 
around 403 in 2016. So we have a 30 or 73 parts per billion 
increase, and it's now increasing at three parts per billion 
per year and increasing, according to the EPA. What does Dr. 
Christy's line look like in 2030, 2040, 2050?
    Dr. Mann. Yeah. Well as we see in that comparison, the 
various surface and lower atmosphere temperature data sets all 
agree pretty well on the warming over the past few decades, and 
so we can get into discussions about what's happening in the 
mid and upper troposphere, but at the surface, there's a pretty 
clear consistency among the records, and the records are 
consistent with the models. And that has been demonstrated in 
numerous publications, and the models allow us to project 
forward so we can feed the models with different possible 
scenarios for future fossil fuel burning. And it turns out that 
given sort of business as usual burning of fossil fuels, if we 
don't do anything to stem our ongoing burning of fossil fuels 
and the increased elevation of greenhouse gases in the 
atmosphere, we will probably cross 2 degrees Celsius warming. 
That's about 3-1/2 Fahrenheit warming of the planet relative to 
the pre-industrial time in a matter of a couple of decades. 
It's an important number because that amount of warming is what 
most scientists who've studies the impacts of climate change 
will tell you is when we truly get into dangerous and 
potentially irreversible changes in climate.
    So we'll be there in a couple decades if we don't do 
something about the problem.
    Mr. Beyer. I think that's my larger point too is that Dr. 
Christy argues that we didn't get close to the 102 average 
model, but it's still significantly upward direction. And if--
back to my India trip, they say when they bring the other 300 
million people get electricity, that will be a 40 percent 
increase in what we expect the greenhouse gases to be.
    One more quick--and I only have a minute--but Dr. Mann, 
when you were at University of Virginia, the American Tradition 
Institute, used the FOIA stuff to try to get all of your 
emails. And Chris Horner and David Schnare were two ATI 
attorneys who sued UVA. David Schnare apparently was doing this 
on a pro bono basis while he was a full-time EPA employee and 
according to letters from the EPA, never did get permission. 
I'd like to submit those for the record, Mr. Chairman, the 
letters from the EPA.
    Chairman Smith. Without objection.
    [The information appears in Appendix II]
    Mr. Beyer. One final thought. Dr. Curry, you just said, and 
I quote, ``I'm not out there on the fringes.'' Would you 
consider Dr. Christy and Dr. Pielke out there on the fringes?
    Dr. Curry. Absolutely not.
    Mr. Beyer. Who is out there on the fringes, or is there a 
fringe?
    Dr. Curry. There are some fringes. People who are 
questioning the fundamental thermodynamics of the, you know, of 
the greenhouse effect and things like that. There are some 
fringe things. You do see a few papers published in fringe 
journals. There are some people out there on the fringe that I 
would call out there on the fringes. Who knows, you know. 
Occasionally I read the papers just to try to keep an open 
mind. They always send them to me. But I would regard that as 
out there on the fringes. I don't regard myself, John Christy, 
or Roger Pielke as out there on the fringes. I think there's a 
lot of scientists who share our perspective and who agree with 
us and who are not part of the politically active publically--
you know, the Rankin file, the research geeks, who a lot of 
them out there agree with us. I hear from them all the time, 
especially from people working from--scientists working at 
government agencies who are afraid to speak out. I hear from a 
lot of them.
    Chairman Smith. Gentleman's time is expired.
    Mr. Beyer. Chair, I yield back.
    Chairman Smith. Thank you, Mr. Beyer.
    The gentleman from Illinois, Mr. LaHood, is recognized.
    Mr. LaHood. Thank you, Mr. Chairman, and I want to thank 
the witnesses for your testimony here today. I appreciate it.
    Dr. Pielke, I wanted to start with you, and I was glad to 
hear your history of serving on this committee as a staffer and 
for George Brown. He was a Democrat, correct, that served here?
    Dr. Pielke. That's right.
    Mr. LaHood. I wanted to ask you, Dr. Pielke, have you ever 
felt attacked by a colleague because of your position on 
climate change science?
    Dr. Pielke. Yes. It just happened. I mean, I was just 
called fringe or suggested to be fringe, and I've come here 
representing the science that's in the IPCC report. It's almost 
a bizarro sort of reaction to be called fringe when you're 
representing mainstream science.
    Mr. LaHood. And let me ask you, has Dr. Mann ever directed 
negative comments to you in your work?
    Dr. Pielke. Yeah, I don't--I'm not interested in the food 
fight with Dr. Mann. I hope everyone takes a look at the 
YouTube of this testimony and sees Dr. Mann speaking and 
listens carefully, but he's a respected scientist. He's the 
leader of the climate change movement in the United States, and 
I think everyone deserves to see his behavior at this hearing.
    Mr. LaHood. And as I understand it in the past--and this is 
public record, Dr. Mann has referred to you as ``a carnival 
barker'' and also ``a contrarian pundit.'' Are you familiar 
with that?
    Dr. Pielke. Yeah. I can't keep up with all of Dr. Mann's 
epithets.
    Mr. LaHood. And Dr. Curry, to you, have you ever felt 
attacked by a colleague because of your position on climate 
change science?
    Dr. Curry. The only one who's really attacked me publicly 
and vociferously is Michael Mann, and you heard, you know, some 
of that today, including being called a denier in his 
Congressional testimony.
    Most scientists are very respectful of my perspectives and 
want to engage me in debate.
    Mr. LaHood. And Dr. Christy, same question for you in terms 
of being attacked by a colleague because of your position on 
climate change science?
    Dr. Christy. You know, I try to forget all that, and so I'd 
rather not comment anymore. It's just something that shouldn't 
happen. I'm sorry it does.
    Mr. LaHood. Got you. Well thank you for that.
    And I guess as I've listened to the testimony here today, 
and I guess, Dr. Mann, I would ask you, as I understand it, you 
are involved currently with a defamation lawsuit about comments 
that were made about you that is currently pending in the DC. 
circuit, is that correct?
    Dr. Mann. I'm not going to speak about that here. It's not 
appropriate to do so.
    Mr. LaHood. And I guess what I would question--I've read 
that defamation suit and I'm familiar with it, and I'm really 
perplexed in trying to figure out the rationale and the 
reasoning for engaging in those types of statements that relate 
to direct threats and bullying. And you mentioned in your 
opening statement about staying away from that. And yet, we 
have a suit that's been filed based on those exact same things. 
And if the real goal is to get away from harassing and 
silencing critics, that does not seem to be the type of 
language you'd want to engage in, and there's a real disconnect 
between a defamation suit that does the exact same thing, but 
you're engaged in that in this public forum. Do you want to 
comment on that?
    Dr. Mann. So I'm not going to talk about the suit, but I do 
want to clarify that there are a number of statements that have 
been attributed to me that are not correct. I don't believe I 
called anybody here a denier, and yet that's been stated over 
and over again. So I've been misrepresented quite a bit today 
by several people----
    Dr. Curry. It's in your written testimony. Go read it 
again.
    Dr. Mann. There--when I talked in the written statement, I 
described scientists who either deny the science or who reject 
its impacts, something to that effect. I did not call you a 
climate change denier, and so that's just a misstatement. It's 
been repeated here.
    But let me state that there's a difference between 
disagreeing with people, which is not only appropriate but 
critical in science, to have honest and frank discussions of 
uncertainty to disagree, to call out those statements that you 
don't believe to be supportable. That is completely 
appropriate. That's very different, for example, from an 
accusation of misconduct or fraud. Those are two completely 
different things, and it's unfortunate that in your question 
you are conflating those two groups of things.
    Mr. LaHood. Well, that's your opinion, Dr. Mann, but are 
you denying that as it relates to Dr. Pielke's work on client--
climate change science that you didn't call him a carnival 
barker or a contrarian pundit?
    Dr. Mann. You would have t provide me the context. I don't 
remember everything I've ever said or done. But what I can tell 
you is that Dr. Pielke has made the following statement. This 
is a quote.
    Mr. LaHood. Well let me----
    Dr. Mann. In the Wall Street Journal, he said ``There is 
scamp evidence to indicate that hurricanes, floods, tornadoes, 
or drought have become more frequent or intense in the U.S. or 
globally.'' That is simply not true. The best available science 
is now attributing individual droughts and floods at a fairly 
high level of confidence to climate change. So do I challenge 
him publicly when he says things like that? Of course I do. Is 
that appropriate? Of course it is.
    Mr. LaHood. So are--again, are you denying--let me ask you 
this. Is it fair to say you could have said that and you don't 
remember that here today?
    Dr. Mann. I don't remember everything that I've ever said, 
and you would have to provide me the context. I'm not sure that 
your characterization is correct. You would have to show me the 
context. You haven't done that.
    Mr. LaHood. I would be happy to show you that.
    I guess my point is you seem overly sensitive to criticism 
as it relates to the defamation suit that engages in the same 
activity that you're engaged here today with these three 
witnesses, and I think there's some hypocrisy in that.
    Thank you.
    Chairman Smith. Thank you, Mr. LaHood, and without 
objection, I now put into the record, if it's not already a 
part of the record, page 6 of Dr. Mann's written testimony 
today where, Dr. Curry, he says ``Climate science denier Judith 
Curry.''
    [The information appears in Appendix II]
    Chairman Smith. I assume that is you he is wrongfully 
referring to.
    Dr. Mann. Climate science. It wasn't climate change. That's 
different, but----
    Chairman Smith. Climate science denier.
    Dr. Curry. Climate science denier Judith Curry.
    Chairman Smith. I think that----
    Dr. Mann. And I've described the science that she's 
denying.
    Chairman Smith. That clearly contradicts what Dr. Mann so 
well----
    Dr. Mann. I've described the science that she's denying.
    Chairman Smith. The gentleman from Illinois, Mr. Foster, is 
recognized.
    Mr. Foster. Well thank you. As a Ph.D. physicist, I would 
just--very interested in how this is sort of--a very strange 
mixture of science and not.
    And so maybe I'd like to try to understand what the range 
of agreement is here. Is there anyone on the panel here that 
believes, for example, on the policy side that the cutbacks in 
climate science, space-based measurements of things like 
temperature ice sheet thickness and so on at NOAA, NASA, EPA 
and the other places of the magnitude contemplated in the 
skinny budget of the Trump Administration are, in fact, a good 
idea? Is there anyone who believes that those cutbacks are a 
good idea?
    Dr. Christy. Well, you know, as a scientist, we live on 
observations and data, and that's how we learn and discover 
things that will help us. So I'm all for----
    Mr. Foster. So there----
    Dr. Christy. --the observing systems being made----
    Mr. Foster. Well-funded and so there is a consensus 
actually that that's not a good idea.
    Let's see. Under the physics point of view, if we go to the 
other end, Dr. Curry, you indicate that your criteria for what 
represented fringe were just rejection of fundamental 
thermodynamics and so on. Does everyone on this panel agree, 
for example, that you know, the temperature of the Earth is set 
in general terms by radiative balance, and that the infrared 
absorption spectra of carbon dioxide is a very relevant driving 
term, and that the uncertainty really is in the other positive 
and negative feedback terms that may or may not be present, 
changes in the convection, things--many of which simply 
redistribute where the excess heat goes when you put carbon 
dioxide in the atmosphere. The other ones, you know, 
potentially increase or decrease the albido of the Earth, 
things like that, where there is--you know, you can imagine 
mechanisms that either make things better or worse. For 
example, you know, if we melt the methane release that could 
come from Siberia, if we melt all of the swamps in Siberia, 
basically. There are very possibly a very strong positive as 
well as negative feedback loops. Is that sort of the range of 
disagreement that we're seeing here? Anyone feel themselves 
outside of that?
    And so that--and is there anyone that feels that that range 
of uncertainty makes it likely that this is never going to be a 
problem if we continue business as usual? So you all think--
would agree that it's more likely than not that this will be a 
big problem?
    Dr. Curry. I would say that we don't know.
    Mr. Foster. No, do you think it is more likely than not 
that this would be a big problem?
    Dr. Curry. I would say as likely as not.
    Mr. Foster. All right. Dr. Mann, do you----
    Dr. Mann. I just want to say that's what I'm talking about. 
I didn't call Judith Curry a climate change denier here today. 
There is a statement in the written statement that she's a 
science--climate science denier, and this is precisely what I'm 
talking about. She has argued that we might be responsible for 
less than 50 percent of the warming that we have seen. The IPCC 
has assessed that. They've actually estimated the likelihood 
that that could be true. It is one in 10,000. One in 10,000 is 
the likelihood of something that she claims to be true. That is 
a rejection of basic accepted science.
    Mr. Foster. Based on climate----
    Dr. Mann. That is a rejection of science.
    Dr. Curry. Based on climate models----
    Dr. Mann. That's a rejection of science.
    Dr. Curry. --I have argued that the climate models are not 
fit for that purpose.
    Dr. Mann. It's a rejection of accepted science.
    Dr. Curry. No, it's a rejection of a manufactured 
consensus. That's what I rejected.
    Dr. Mann. Well just one last statement.
    Mr. Foster. If we could separate from temperatures. The 
question of ocean acidification, is there an agreement that as 
you raise CO<INF>2</INF> levels in the atmosphere that this 
will lead to ocean acidification, or is that also sort of 
thought of as a fringe point of view? So that one, there is 
agreement on, because that has very severe environmental 
consequences, obviously, that are not--it's interesting that 
they're not really under debate.
    Dr. Curry. The environmental consequences--our 
understanding of the ecological impacts of ocean acidification 
is in its infancy, and how this relates to ecosystems. I mean, 
we don't know very much about how slow rates, highly variable 
ocean acidification impacts ecosystems. It's something under 
investigation.
    Mr. Foster. It could be either better or worse than our 
current best estimate?
    Dr. Curry. Yes.
    Mr. Foster. Okay. The other sort of general question is 
what is the proper response to fringe? How do you set what is 
defined as a fringe opinion? You know, in physics conferences, 
there's always a poster session where you have people that say 
Einstein was wrong, you know, and they are very sweet people 
with a variety of science credentials. And it's always a 
delicate thing trying to understand. You know, I've often gone 
and had conversation with people, listen to their very 
interesting theories, and yet they're not given plenary talks 
at this thing. And so how do you--what is the right way to 
handle that? How many standard deviations do you have to be out 
of the mainstream before it is acceptable to do that? Yeah, Dr. 
Curry, how would you----
    Dr. Curry. Well, the point is is you ignore these things if 
you don't find them interesting or convincing. Okay, you ignore 
it. And most of these things don't have any particular 
consequence to our engineering, our technologies, or to the 
most consequential, you know, science issues of the day. So you 
just ignore it. There's no reason to squash it, okay? You 
just--if somebody catches somebody's attention and you look at 
it and you consider it, maybe it tweaked something in your 
brain about oh, you know, there is some sort of line suggested 
by this that maybe we should explore, or you ignore it. There's 
no reason to squash it or even particularly define it.
    Chairman Smith. The gentleman's time----
    Dr. Curry. Just don't pay attention to it.
    Chairman Smith. The gentleman's time has expired. Thank 
you, Mr. Foster.
    The gentleman from Georgia, Mr. Loudermilk, is recognized.
    Mr. Loudermilk. Thank you, Mr. Chairman, and thank all the 
witnesses for being here. This is--there for a while, I thought 
you guys were in the Republican conference debating Obamacare 
repeal.
    Dr. Curry, being from Georgia, I appreciate you being here 
again. If I recall last year when you were here, in part of 
your testimony you--let me just ask you the question this way. 
Do you believe that the climate is changing?
    Dr. Curry. Absolutely. Climate is always changing.
    Mr. Loudermilk. Do you believe that human activity could be 
a cause?
    Dr. Curry. Oh, it is a cause. It does contribute.
    Mr. Loudermilk. Okay. So you actually do believe that it 
does----
    Dr. Curry. Oh yeah, sure. The question is whether it's the 
dominant cause.
    Mr. Loudermilk. Right.
    Dr. Curry. Okay, and even the IPCC says more than half, 
okay? And that's from 51 percent to 99 percent. That's a big--
--
    Mr. Loudermilk. So you don't deny that human activity is--
--
    Dr. Curry. No, absolutely not.
    Mr. Loudermilk. Okay.
    Dr. Curry. I just don't know how much is human versus how 
much is natural, and I think there's a great deal of 
uncertainty, and it's very difficult to entangle it.
    Mr. Loudermilk. Is that uncertainty possibly because we 
don't really fully understand what causes this climate machine?
    Dr. Curry. Absolutely. Our understanding of climate 
dynamics on decades to century to millennial time scale is far 
from complete.
    Mr. Loudermilk. Okay. Dr. Christy, same question. Do you 
believe that there's change in the climate?
    Dr. Christy. Yes.
    Mr. Loudermilk. Okay, that--do you believe that it's 
possible that human activity could contribute to it?
    Dr. Christy. I actually have a couple papers showing how 
humans have affected the temperature, mainly through the 
surface thermometers, urbanization----
    Mr. Loudermilk. It doesn't sound like either one of you are 
deniers of----
    Dr. Christy. And that carbon dioxide is a greenhouse gas. 
It can't not absorb infrared energy.
    Mr. Loudermilk. Okay. Dr. Mann, obviously you think, you 
know, climate is changing. Do you think that it's possible that 
human activity is not the dominant factor?
    Dr. Mann. So I already spoke to that. Judith Curry is on 
record, and we just heard it----
    Mr. Loudermilk. No, I'm asking you. What do you think?
    Dr. Mann. Well saying less than 50 percent. It might be 
less than 50 percent. The IPCC actually has a very nice----
    Mr. Loudermilk. I'm asking what do you think?
    Dr. Mann. I believe what the IPCC has said about this, that 
the--less than--the proposition that we are responsible for 
less than 50 percent of the warming can be dismissed as a 1 in 
10,000 proposition----
    Mr. Loudermilk. Okay. Well what do you think, or are you 
just----
    Dr. Mann. I accept the consensus.
    Mr. Loudermilk. I don't want you to parrot what IPCC says.
    Dr. Mann. I accept the world's scientists opinion. I accept 
the consensus.
    Mr. Loudermilk. So in your opinion, there could not be no 
chance that human activity does not--is not the major 
contributor?
    Dr. Mann. Well it's a double negative, but there is a 
possibility we'll wake up tomorrow and gravity no longer 
exists. Those are possibilities, but extremely unlikely.
    Mr. Loudermilk. Okay. It doesn't sound like anybody or any 
amount of data could convince you otherwise at this point.
    Dr. Mann. I go with the physics.
    Mr. Loudermilk. Okay, so----
    Dr. Mann. You can go with opinions if you want. I go with 
physics.
    Mr. Loudermilk. We could say you're a denier of natural 
change.
    Dr. Mann. No, I actually--my career in large part was built 
on my studies of natural variability. The Atlantic multi-
decadal oscillation that Judith Curry loves to talk about, that 
was coined by me. My early studies----
    Mr. Loudermilk. Let me ask you this question.
    Dr. Mann. --established the importance of internal 
oscillations in the climate.
    Mr. Loudermilk. I'm not trying to be----
    Dr. Mann. I just want to inform----
    Mr. Loudermilk. --confrontative----
    Dr. Mann. No, I just want to make sure you know that.
    Mr. Loudermilk. Okay. Do you believe that we truly 
understand what creates the weather? What is--do we understand 
the climate machine?
    Dr. Mann. So the weather is caused by what we call 
baroclinic instability. I'd be happy to talk to you for hours 
offline about----
    Mr. Loudermilk. But I mean, do you disagree with Dr. Curry 
that--you sound like we have grasps on science that we know 
what creates this weather patterns and we know what creates----
    Dr. Mann. I'm not sure how to----
    Mr. Loudermilk. --the weather machine?
    Dr. Mann. --parse that question. We understand at a great 
level of detail the workings of the atmosphere, the workings of 
the ocean and the ice sheets and the way they interact. 
Thousands of scientists have been studying these things for 
decades. We understand----
    Mr. Loudermilk. Let me ask you this.
    Dr. Mann. --the science of climate as well as the science 
of just about any other field.
    Mr. Loudermilk. I don't want to filibuster. I'm running out 
of time here.
    So why do we ban----
    Dr. Christy. I would just like to add that when we 
understand other fields of science, we can predict the 
behavior.
    Mr. Loudermilk. Right.
    Dr. Christy. I have demonstrated we cannot predict----
    Mr. Loudermilk. Okay. The National Academy of Science 
agrees with you, at least they did in the 1970s, when they said 
we do not have a good quantitative understanding of our climate 
machine and what determines its course. Without the fundamental 
understanding, it does not seem possible to predict the 
climate.
    Why did we have a ban on sulfuric dioxide in the 1970s, Dr. 
Mann?
    Dr. Mann. Yeah, so you're right that, you know, more than 
40 years ago we didn't have nearly the understanding we have 
today. In 1975, the National Academy of Science actually said 
they didn't know what was going to win out. They didn't say 
that global warming isn't caused by increase in greenhouse 
gases. What they were saying in that report was that we don't 
know what's going to win out, the warming effect of increasing 
greenhouse gases, or the cooling effect of these particulates 
that we are producing.
    Mr. Loudermilk. So there were differences among the 
scientific community because as was mentioned earlier, there 
was a cooling trend?
    Dr. Mann. Yeah, we understand very well where that came 
from. The state----
    Mr. Loudermilk. The policy result was the reaction of 
lawmakers and banning sulfuric dioxide in response to the 
cooling trend that a group of scientists said was definitely 
causing the cooling of the Earth. And I just refer back to Dr. 
Curry.
    Dr. Mann. Can I answer?
    Mr. Loudermilk. Dr. Curry, does this show evidence of--that 
we really don't have a full grasp of what causes the climate 
change?
    Dr. Curry. There are----
    Mr. Loudermilk. And I think what your thing is, we may 
overreact in public policy that could actually have a 
diminishing factor in----
    Chairman Smith. The gentleman's time has expired. Do you 
want to answer very quickly, Dr. Curry?
    Dr. Curry. That's okay.
    Chairman Smith. Okay. I'm sorry. The gentleman from 
Florida, Mr. Webster, has a unanimous consent request.
    Mr. Webster. Yes, Mr. Chair. I have a report here entitled 
``What Triggers Ice Ages'' and I would like to have that 
entered into the record.
    Chairman Smith. Without objection.
    [The information appears in Appendix II]
    Chairman Smith. And the gentlewoman from Texas has a 
unanimous consent request, and she is recognized for that 
purpose.
    Ms. Johnson. Thank you, Mr. Chairman. I'd like to enter 
into the record an article published in Scientific American 
that debunks the claim that there was a pause in global 
warming, and I'd also like to enter into the record a blog post 
by the Union of Concerned Scientists that breaks down Dr. 
Lindzen's letter to President Trump.
    Chairman Smith. Okay, without objection.
    [The information appears in Appendix II]
    Chairman Smith. And the gentlewoman from Connecticut, Ms. 
Esty, is recognized for her questions.
    Ms. Esty. Thank you, Mr. Chairman.
    I'd like to return again to the question a little bit 
about--the topic here is on scientific process. Do we have 
agreement that scientific process is about proposing 
hypotheses, testing them, revising, and continuing to do that 
in the ultimate goal of trying to arrive at some sort of truth? 
That that's the objective, never attained in its entirety, but 
that's the objective? If that--if there's agreement? I'm 
getting nods that that is, in layperson's terms, the 
understanding of scientific process.
    What do people think we should be funding research to do in 
the area of climate, recognizing that there are bands within 
which humans will not survive on the Earth if it goes outside 
those bands? Does anybody think that cutting climate funding 
for research should happen now, given the robust disagreement 
on this panel? Because there are proposals on the table that--
right now to cut planetary science funding, to stop NOAA from 
looking at it, to stop NASA from looking at this, because of a 
disagreement about how to interpret and prioritize those 
results. Do I--Dr. Curry, do you believe we should be funding 
more science or less scientific research in this field?
    Dr. Curry. Different science.
    Ms. Esty. Okay, but the--let's be clear that proposals in 
the so-called skinny budget from the President would be for 
cutting that research?
    Dr. Curry. Yeah. It's a matter of priority. Spending more 
money on climate model taxonomy isn't going to get us anywhere. 
Spending more money on observing systems will.
    Ms. Esty. Which would be NASA, for example.
    Dr. Curry. Yeah, and spending more money on fundamental 
understanding, theory regarding climate dynamics on a range of 
time scales, that would pay dividends.
    Ms. Esty. And those are some--precisely the ones that are 
being cut in the proposals on the table right now, so I'm glad 
to see there's agreement, that I think you agree with those of 
us on this panel that would like to see that funding continue 
to try to determine this.
    Our job will be to take the science and to try to make 
public policy decisions. Clearly, there is not total certainty 
here. However, if the risk is sufficiently great, we take steps 
even without certainty. I'm part of a resiliency caucus that is 
looking at things we can do to design safer buildings so we 
survive storms better, whether they're tornadoes or hurricanes. 
We take steps--most of us carry insurance on our homes, even 
though we've probably never lived in a home that's burned to 
the ground.
    So in addition to whatever you discover and whatever the 
disputes may be about science, there's significant research 
showing that humans have some impact, right, and we're not 
talking trivial either. I don't think anyone at this table has 
talked trivial impact. So I believe we should be continuing to 
fund research, but make no mistake, even if it's--whether it's 
20 percent, 30 percent, 50 percent, the consequences to human 
beings now and in the future are significant.
    I want to note that I was at a conference 15 years ago, 
RAND Corporation conference, talking about how the next wars 
would be over water. This is a national security issue. So even 
if, for example, overall water patterns, the amount of rainfall 
is the same, where it flows, when it flows, how fast it comes 
down has major implications for crops, major implications for 
the stability of other countries. So I think these are the 
kinds of issues that we should be funding, because it's not 
simply a question of who gets the research dollars. The 
consequences for this country are very grave for our citizens.
    So I would ask you as much as possible to join us in 
funding robust research and then let those of us in elected 
positions make decisions in that band of uncertainty. Because I 
can tell you right now that constituents in my district in 
Connecticut are deeply concerned at what they see as an over-
politicization of science right now, and I'm afraid we saw that 
in this room today, which I deeply regret and I hope we can get 
agreement to fund robust, open-source research that allows 
decision making by this body in light of that uncertainty. So I 
will side, however, with Dr. Mann that at some point, we have 
to go with consensus for the time being as we continue 
research. And I would say that is the prudent course is to go 
with consensus, while continuing research. That doesn't mean 
stopping research. That means continuing research, and yet we 
cannot wait for final ultimate truth to make decisions.
    And with that, I yield back my 12 seconds.
    Chairman Smith. Thank you, Ms. Esty.
    Thank you all for your testimony today. This has obviously 
been enlightening, sometimes a little contentious, but 
nevertheless, informative to all of us who are up here. I 
appreciate your attendance and we stand adjourned.
    [Whereupon, at 12:29 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
